<html>
<title> - LOCAL PERSPECTIVES ON THE LIVABLE COMMUNITIES ACT</title>
<body><pre>[Senate Hearing 111-692]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-692

 
           LOCAL PERSPECTIVES ON THE LIVABLE COMMUNITIES ACT

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                 EXAMINING THE LIVABLE COMMUNITIES ACT

                               __________

                              JUNE 9, 2010

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs


      Available at: http: //www.access.gpo.gov /congress /senate/
                            senate05sh.html




                  U.S. GOVERNMENT PRINTING OFFICE
61-988                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2c4b5c436c4f595f584449405c024f434102">[email&#160;protected]</a>  


            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

               CHRISTOPHER J. DODD, Connecticut, Chairman

TIM JOHNSON, South Dakota            RICHARD C. SHELBY, Alabama
JACK REED, Rhode Island              ROBERT F. BENNETT, Utah
CHARLES E. SCHUMER, New York         JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   MIKE CRAPO, Idaho
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
DANIEL K. AKAKA, Hawaii              JIM DeMINT, South Carolina
SHERROD BROWN, Ohio                  DAVID VITTER, Louisiana
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
HERB KOHL, Wisconsin                 KAY BAILEY HUTCHISON, Texas
MARK R. WARNER, Virginia             JUDD GREGG, New Hampshire
JEFF MERKLEY, Oregon
MICHAEL F. BENNET, Colorado

                    Edward Silverman, Staff Director

              William D. Duhnke, Republican Staff Director

                  Mitch Warren, Senior Policy Advisor

                 Beth Cooper, Professional Staff Member

                  Devin Hartley, Legislative Assistant

                      Margaret Smith, FTA Detailee

            Chad Davis, Republican Professional Staff Member

          Shannon Hines, Republican Professional Staff Member

                       Dawn Ratliff, Chief Clerk

                     Levon Bagramian, Hearing Clerk

                      Shelvin Simmons, IT Director

                          Jim Crowell, Editor

                                  (ii)
?

                            C O N T E N T S

                              ----------                              

                        WEDNESDAY, JUNE 9, 2010

                                                                   Page

Opening statement of Chairman Dodd...............................     1

Opening statements, comments, or prepared statements of:
    Senator Shelby
        Prepared statement.......................................    36
    Senator Menendez.............................................     4
    Senator Brown................................................     5
    Senator Merkley..............................................     6
    Senator Schumer..............................................     7

                               WITNESSES

Jackie Nytes, City-County Councillor, City-County Council of 
  Indianapolis and Marion County, Indiana, on behalf of the 
  National League of Cities......................................     9
    Prepared statement...........................................    36
Joe McKinney, Executive Director, Land-of-Sky Regional Council, 
  Asheville, North Carolina, on behalf of the National 
  Association of Development Associations........................    10
    Prepared statement...........................................    45
Lyle D. Wray, Executive Director, Capital Region Council of 
  Governments, Hartford, Connecticut, on behalf of the National 
  Association of Regional Councils...............................    12
    Prepared statement...........................................    47
Julia W. Gouge, President, Board of County Commissioners, Carroll 
  County, Maryland, on behalf of the National Association of 
  Counties.......................................................    15
    Prepared statement...........................................    52
    Responses to written questions of:
        Senator Vitter...........................................    70

              Additional Material Supplied for the Record

The Livable Communities Act (S. 1619)............................    71

                                 (iii)


           LOCAL PERSPECTIVES ON THE LIVABLE COMMUNITIES ACT

                              ----------                              


                        WEDNESDAY, JUNE 9, 2010

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met at 10:03 a.m., in room SD-538, Dirksen 
Senate Office Building, Senator Christopher J. Dodd (Chairman 
of the Committee) presiding.

       OPENING STATEMENT OF CHAIRMAN CHRISTOPHER J. DODD

    Chairman Dodd. The Committee will come to order. Let me 
welcome our witnesses and our guests to the Banking Committee 
this morning, and I welcome my colleague from New Jersey as 
well. I see Senator Menendez.
    This morning, we are pleased to have a hearing on a subject 
matter that I think is of growing interest in the Nation, local 
perspectives on livable communities, and I want to commend my 
colleagues. There are a number of Members on this Committee who 
have cosponsored the bill that we are proposing. We have had a 
good working relationship with the Administration. We have had 
a number of meetings, symposiums, and gatherings of one kind or 
another to talk about this perspective, and I am very grateful 
for the contributions that have been made by people who are 
interested in this, I think, very important subject matter. I 
particularly want to thank the Obama administration for early 
on understanding the concept and the idea behind livable 
communities and the importance of addressing the issue in a 
holistic fashion. One of the best gatherings we had occurred in 
this very room with representatives from the Departments of 
Housing, Energy, and Transportation to act in a coordinated 
fashion on how we might develop ideas to have intelligent, 
smart growth in our Nation.
    I am going to share a few opening comments, if I can, with 
you this morning. I will turn to my colleagues who are here--
and I welcome my colleague from Ohio, Sherrod Brown, as well--
and see if they have any opening comments they would like to 
make. Then we will turn to our witnesses and have a 
conversation with each other about this idea and your 
perspectives on how we can move this idea further along. So I 
thank all of you for joining us here today as we gather local 
perspectives on the Livable Community's Act.
    This legislation provides funding for regions to plan 
future growth in a coordinated way that reduces congestion, 
generated good-paying jobs, creates and preserves affordable 
housing, meets our environmental and energy goals, protects 
rural areas and green spaces, and revitalizes our main streets 
and urban centers and, further, makes our communities better 
places in which to live, to work, and, of course, most 
importantly, to raise our families.
    Creating livable communities is about giving our cities and 
towns the tools to plan their own futures, giving people more 
transportation and housing choices, and encouraging sustainable 
development to ensure a better future for our Nation as a 
whole.
    If we are going to address some of the long-term problems 
facing our Nation, we are going to have to break down our 
policy silos and approach these issues in a far more 
coordinated fashion than we have. For many years, Federal 
housing and transportation policies incentivized development 
further and further and further away from existing communities 
and small town main streets. Today, as a result, we have what I 
would describe as worsening traffic congestion, costing tens of 
billions of dollars in lost time and fuel, not to mention 
reduced productivity, lost time with families, and reduces 
quality of life.
    Traffic is not the only problem, however. Dispersed and 
uncoordinated development patterns require billions of dollars 
in new infrastructure costs at the same time that existing 
infrastructure is deteriorating at an alarming rate all across 
our Nation from lack of attention and, of course, funding as 
well at any level of government. And well over a million--in 
fact, closer to 2 million acres of open space and farmland are 
lost each year to the development of our metropolitan and rural 
fringes. Imagine that, almost 2 million acres a year being 
lost.
    One can argue that this has been true for years, so why 
should we act now, of course? Our Nation is facing a number of 
significant problems, including a deep economic recession, a 
housing foreclosure crisis that we are all painfully aware of 
on this Committee, the looming threat of climate change, and 
increasingly worrisome dependence on oil, deteriorating 
infrastructure, and, yes, of course, as we all know, worsening 
traffic congestion.
    Future demographic trends make our current patterns 
unsustainable. Our population is expected to grow by over 100 
million people between now and 2050, and the first of the baby 
boomers are reaching retirement age, portending a huge 
demographic shift in the coming years.
    Let me just share with you some additional demographic 
issues. This is not what we fear may happen. This is what is 
going to happen. This is not what we would like to do. This is 
what we must address.
    The percentage of households with children under the age of 
18 has dropped from about half of all households in 1960 to 
about one-third today. Only one-quarter of households will have 
children under the age of 18 by the year 2050, so one-quarter. 
Again, just a dipping demographic point in terms of the needs. 
The people who live in these houses, what are their needs going 
to be? So you are down to one-quarter of households who have 
children under the age of 18.
    The portion of residents 65 years of age is projected to 
approximately double from 13 percent today to 20 percent of the 
population between now and 2050--and, again, I think a 
demographic that demands different accommodations that we are 
going to have to address along the way.
    So we must address these challenges, as I said, in a 
coordinated way, and as Chairman of the Committee, I have 
sought to make this happen through the hearings and ideas that 
we have tried to bring to this Committee.
    Soon after he took office last year, I wrote President 
Obama urging him to improve the coordination between our 
Federal housing, community development, transportation, energy, 
and environmental policies. Last March, the Banking Committee 
hosted a symposium entitled ``Creating Livable Communities: 
Housing and Transit Policy in the 21st Century.'' A dozen 
housing, transit planning, and real estate experts from around 
our Nation participate in that symposium, and last June, this 
Committee held a hearing with Transportation Secretary Ray 
LaHood, HUD Secretary Shaun Donovan, and Environmental 
Protection Agency Administrator Lisa Jackson. It was at this 
hearing that these three agencies announced their Partnership 
for Sustainable Communities, which recognizes the importance of 
working across traditional boundaries of the Federal Government 
to create more cohesive and collaborative policies.
    In August, I, along with a number of Members of this 
Committee, introduced the Livable Communities Act. The 
legislation will provide resources for comprehensive planning. 
The design of our communities is often seen as primarily a 
local issue, but the enduring consequences of how we lay out 
our communities are national in scope as well. New studies show 
that location-efficient homes are less likely to risk 
foreclosure, for instance. Less compact communities that force 
residents to rely solely on their cars increase the cost burden 
of transportation on households. And transportation is already 
the second largest expense for American households, way ahead 
of clothing, food, and health care. The American Public 
Transportation Association estimates that families with access 
to good public transportation can save an average of $9,000 per 
year in transportation costs compared to households with no 
transit access.
    Our Livable Communities Act will also provide capital 
grants so that regions can compete to implement their plans. 
These grants can be tailored to meet the needs of diverse 
regions. One community can use the grants to develop 
brownfields in a postindustrial area. Another region can use 
the funds to develop and preserve mixed-income housing near 
transit. And yet another might create a workable, pedestrian-
friendly main street or town center.
    By creating these livable communities, our neighborhoods 
and our communities can attract and retain young people, 
recruit new workers, put existing residents back to work, 
accommodate the needs of our older citizens, and see to it that 
they have the kind of retirement that they deserve with dignity 
and safety.
    So I look forward to hearing from our witnesses today, and 
our colleagues, each of whom has experience in dealing with 
these issues. As I look down the panel of those who have 
gathered, my colleague from New York, my colleagues from New 
Jersey and Ohio and Oregon, you get a sense here of the kind of 
diversity that can be represented at our table here. We have 
talked to our rural members as well about ideas they have. We 
want this to be a national scope and plan idea that can make a 
difference for them.
    With that, let me turn to my colleagues to see if they 
would like to make any brief opening comments on the subject 
matter, because I know the demands of the time are such that 
you may not be able to spend as much time as I would like or 
that you would even like to this morning. So let me turn, if I 
can, to Senator Menendez, and I will go right down the line 
here with any of you here for a few opening comments, then 
introduce our witnesses, and hopefully you can stay as long as 
you can to listen to them as well. Bob.

              STATEMENT OF SENATOR ROBERT MENENDEZ

    Senator Menendez. Thank you, Mr. Chairman, for the 
opportunity, and I will be in and out because we have Secretary 
Salazar at the Energy Committee talking about the spill. But I 
wanted to be here because I appreciate your work and leadership 
on this issue, which I have a great deal of interest in, going 
back a long time, in creating more livable communities. I 
believe it is legislation that can help jump-start our economy, 
reinvigorate the housing market, increase our energy security, 
and make the air that we breathe cleaner and our communities 
healthier. And I think that the bill would expand on the 
successes of community projects all over America, including my 
home State of New Jersey, where we have been working on transit 
villages, something that I helped create when I was in the 
House of Representatives, where we create, for example, 
communities in which high-speed, nonpolluting light rail lines 
are at the focus of centers that can then create a nexus to 
jobs, access to hospitals, access to cultural opportunities, 
and has spurred development along the entire rail line and 
taken a lot of cars off the road. And that is the type of 
successful community projects that have shown that livable 
communities can save Americans money while significantly 
improving the environment we live in and the quality of our 
lives.
    So whether we call it a livable city or smart growth or 
sustainable development, I think what people want, Mr. 
Chairman, is a community where they have the freedom to walk 
out their door, grab a bite to eat, run an errand; the freedom 
to hop on mass transit to commute to work or catch up with 
their friends and family, to see their favorite band or 
baseball team. What people want are development policies and 
transportation choices that get them out of bumper-to-bumper 
traffic and give them more time with their families, more 
productive time at work, but also the benefits, I think, go far 
beyond that, even. By giving people the choice to live in 
communities where they do not necessarily have to use their 
cars, traffic is reduced, it means the rate of asthma and other 
breathing ailments are reduced, and to reduce our energy 
consumption as well as our emissions.
    I think we can take lessons from across the country, and 
those lessons as well as helpful competition I think can 
accelerate this process. I know your bill does that to a large 
degree, establishing at HUD a department, an office to 
coordinate Federal policy on smart growth, to create 
competitive grants, to provide incentives for communities to 
compete to create truly sustainable communities, and I 
certainly hope, Mr. Chairman, that you will move forward in a 
markup of the bill and an opportunity for us to create the 
Federal incentive to help communities move in a direction that 
can both fuel our economy, improve our energy security, and 
improve the quality of life. There are few pieces of 
legislation that get to do all of that. I think this does, and 
I commend you and look forward to working with you.
    Chairman Dodd. Well, thank you very much to my colleague.
    Senator Brown.

               STATEMENT OF SENATOR SHERROD BROWN

    Senator Brown. Thank you, Mr. Chairman, and thanks for 
holding the hearing and for your leadership on livability 
issues.
    Earlier this spring, I was in Columbus, the capital city of 
my State, for the unveiling of a report by a public policy and 
grass-roots organization called Greater Ohio, titled 
``Restoring Prosperity: Transforming Ohio's Communities for the 
Next Economy.'' The report outlined a number of critical smart 
growth and livability ideas that we are already working on, 
transitioning to a clean-energy economy, investing in 
infrastructure, capitalizing on home-grown talent rather than 
seeing so many young people leave our State.
    One of the key suggestions was taking steps to ensure that 
our communities are places where people want to live and to 
work. Communities in my State are making several of these 
important steps. They are embarking on regional planning 
strategies. They are promoting walkable communities or 
developing better land-use policies to protect our farmland. As 
Chairman Dodd suggested, they are initiating neighborhood 
revitalization programs in our older industrial cities. Whether 
it is brownfield development, whether it is investments in 
public transportation that spur transit-oriented economic 
development, these programs are vital, as we know, for any 
State.
    In Ohio, we have a number of cities that have shrunk 
dramatically in the last 50 or so years. In 1950, Cleveland had 
a population just under 1 million people. Today's population in 
Cleveland as estimated in 2000 was under half a million and 
will likely have dropped significantly in large part because of 
foreclosure issues, perhaps as low as 400,000. Youngstown, with 
a population of 170,000 in 1950, has shrunk to less than half 
its size where some estimates are 40 percent plus of properties 
in Youngstown are vacant.
    There are numerous cities around the country with thousands 
of vacant homes and empty neighborhoods. We know that is a 
problem in terms of the shrinking cities. That is why last year 
Senator Schumer and I introduced the Community Regeneration, 
Sustainability, and Innovation Act. It would help older cities 
that have experienced serious population declines from Buffalo 
to Birmingham and lots of cities in between to--as we think we 
know how to manage growth, we do not necessarily how to manage 
shrinkage, and that is something that this legislation that 
Senator Schumer and I have worked on will do.
    In Youngstown, Mayor Jay Williams has developed a 
comprehensive planning effort called Youngstown 2010 to create 
a smaller, greener, and cleaner city. I was in Youngstown last 
week and met for the third time with members of the Mahoning 
Valley Organizing Collaborative, headed by Pastor Harrison, 
with Kirk Noden as its executive director, who have been 
tireless promoters of their city and thought through in a 
comprehensive way how to reduce the number of vacant properties 
and improve the quality of life in the Mahoning Valley. They 
know what empty neighborhoods and abandoned neighborhoods do in 
terms of crime, in terms of sucking up city resources. They 
know that Youngstown can once again attract a new population 
and new jobs to compete with cities like Portland and Salt Lake 
and Atlanta. We have seen that already, an incubator project in 
Youngstown, several small businesses have 300 employees, 
average age 28, average wage $58,000. A company from San 
Francisco is moving to Youngstown, just announced recently. We 
are seeing that kind of turnaround in that city, but we 
obviously need outside help.
    We should ensure that older so-called ``shrinking cities,'' 
whether Gary, Indiana, or Detroit or Cleveland, have a place in 
this bill for innovative programs needed to address their 
unique set of challenges. I look forward to working with the 
Chairman on doing that.
    Chairman Dodd. Senator Brown, thanks very, very much. I 
appreciate it.
    Senator Merkley.

               STATEMENT OF SENATOR JEFF MERKLEY

    Senator Merkley. Thank you very much, Mr. Chair, and it is 
a pleasure to be here.
    Oregon set in motion an experiment in the 1970s where we 
put an urban growth boundary around each of our urban settings, 
and this was to confine the area in which sprawl--or confine 
sprawl and protect forestland and farmland. And that set the 
stage for a rethinking of how we designed our cities.
    While many cities had inner cores that were burning out and 
inner suburban areas that were going into poverty and creating 
kind of a doughnut effect around the urban core, the center of 
Oregon cities started to thrive with reinvestment, and then 
transportation and housing policy followed--transportation 
policy to try to diminish the commute time, and that meant 
light rail and now the addition of streetcars; then housing 
policy that would encourage people to live adjacent to 
industrial manufacturing areas or to live along the light rail 
in order to utilize it to get to work, creating what has now 
been termed the Intertwine, which is a network of trails and 
bike paths that go throughout the urban center so that people 
can have another alternative, and it has turned Portland and 
Eugene and some other cities into major, major biking centers. 
And all of this has worked to greatly diminish the commute 
times, to enhance the number of folks who choose to walk or to 
bike, and it has dramatically reduced the production of 
greenhouse gases.
    While many cities continue to produce more greenhouse gases 
per person, Portland has had a net decrease, not just in the 
total but the amount per person. And so there is a high 
corollary to quality of life and to quality of the environment 
that comes from smart city urban planning, and I certainly love 
this effort to focus on how housing, transportation, and 
environment are connected and should be connected through good 
planning. Welcome.
    Chairman Dodd. Thank you very much, Senator.
    Senator Schumer.

            STATEMENT OF SENATOR CHARLES E. SCHUMER

    Senator Schumer. Thank you, Mr. Chairman. I want to thank 
you for holding this hearing. I thank my colleagues, Senator 
Brown and I who have legislation, Senator Merkley for his 
creative ideas, Senator Menendez faced with similar problems we 
face in downstate New York and then some of the problems we 
face in upstate New York are similar to the ones Senator Brown 
mentioned in Youngstown.
    I also want to thank Secretaries Donovan, LaHood, and 
Jackson for their leadership in creating the Interagency 
Partnership for Sustainable Communities, which I believe will 
help communities cut through the red tape.
    I am going to abbreviate my statement and ask unanimous 
consent it be read in the record, but just point to one area 
where we need the help and why this is so important, and that 
is, Long Island, New York, America's oldest suburb. I wrote to 
heads of the Interagency Partnership to ask them to visit Long 
Island to see firsthand how sustainability initiatives could 
help with housing, transportation, and water infrastructure 
needs. Long Island's transportation and sewer infrastructures 
are aging and falling out of states of good repair. Many of 
them were built, as the suburb started growing in the 1950s and 
1960s, 50 years ago.
    The aging housing stock places a large burden on residents 
saddled with rising utility costs. Most homes built before the 
mid-1970s did not have any insulation at all because oil was so 
cheap, gas was so cheap. And the communities are built around 
policy that was designed to meet demographic needs of the U.S. 
in the mid-20th century.
    So it is about time we got down to business here in 
Congress to support better planning of our Nation's 
communities. We need smart and future-focused coordination of 
housing, environmental, and transportation initiatives to 
provide communities like Long Island with the tools necessary 
to retain a young, viable population and revitalize their local 
economies.
    We have great education on Long Island, but a lot of the 
young people leave if there are no jobs and no recreational 
activities. Revitalizing our downtowns really helps keep the 
young people there. And Long Island communities, like so many 
in New York State and across the country, need a jump-start 
from the Federal Government to propel them into the small but 
growing universe of 21st century communities built on 
innovation.
    We all know that when key Federal resources are missing 
from the picture, smart growth and sustainability development 
projects stall and communities suffer. These towns and villages 
do not have the wherewithal on their own to get this done. They 
need help.
    The Livable Communities Act would create a competitive 
grant program--it is just what the doctor ordered--to help 
communities carefully coordinate every aspect of regional 
planning, from housing and transportation to environmental 
initiatives. The end result of this type of planning is long-
term strengthening of overall infrastructure, economic 
sustainability that residents and businesses will truly feel. 
But too many municipalities have struggled to work through many 
of the land-use planning and financial intricacies at the 
Federal level, too complicated for them to get through, too 
cumbersome, too bureaucratic. The Interagency Partnership 
creates a one-stop shop for local governments looking for 
guidance on sustainability planning, and I am confident this is 
the beginning of a very promising future trend, a trend which 
community development will no longer be piecemeal work but will 
instead incorporate multiple initiatives that bolster entire 
regions all working together.
    I am happy to report that the Interagency Partnership has 
indeed pledged to visit Long Island this summer to meet and 
work with local leaders on revitalization projects, and I look 
forward to working with everyone to see Long Island and other 
communities in New York prosper. And I want to thank my 
colleagues and again thank Chairman Dodd for this innovative 
and much needed legislation.
    Chairman Dodd. Senator, thank you very, very much. I 
appreciate my colleagues' participation.
    Now let me turn to my witnesses, if I can, this morning who 
are here. We thank all four of you for joining us. Let me 
introduce you briefly.
    Jackie Nytes is currently serving her third term on the 
Indianapolis and Marion County, Indiana, City-County Council. 
Councillor Nytes has served as the president of the Indiana 
Economic Development Council and is currently the executive 
director of the Mapleton Fall Creek Development Corporation. 
She is testifying today on behalf of the National League of 
Cities, and we thank you for joining us.
    Joe McKinney has served in city, county, and regional 
government management since 1991. Since 2003, Mr. McKinney has 
served as the executive director of the Land-of-Sky Regional 
Council, which serves a four-county region in western North 
Carolina. He is testifying today on behalf of the National 
Association of Development Organizations.
    Lyle Wray is the executive director of the Capital Region 
Council of Governments based in Hartford, Connecticut. Dr. Wray 
has previously served as county administrator for Dakota 
County, Minnesota, and director of the Ventura County Civic 
Alliance. He is testifying today on behalf of the National 
Association of Regional Councils, and I thank my constituent 
for joining us.
    And, last, we have the Honorable Julia Gouge, who is 
currently in her fifth term as Carroll County, Maryland, 
commissioner, serving as the president of the Board of 
Commissioners. Commissioner Gouge has also served as mayor of 
Hampstead, Maryland, as president of the Maryland Association 
of Counties, and as a member of the Board of Directors of the 
National Association of Counties. She will be testifying today 
on behalf of the National Association of Counties, and we thank 
you as well for joining us.
    I will ask you to begin in the order that I have introduced 
you. Jackie, we will begin with you, if that is all right, with 
opening comments, and I will inform you that any documents or 
supporting material that you think is important for us to have, 
we will include it in the record. Consider it included, in 
fact. That goes for all of you this morning as well.
    Try and keep your comments, if you can, down to that 5, 6, 
or 7 minutes or so, so we can hear from all of you, and then we 
will turn to some questions.

STATEMENT OF JACKIE NYTES, CITY-COUNTY COUNCILLOR, CITY-COUNTY 
 COUNCIL OF INDIANAPOLIS AND MARION COUNTY, INDIANA, ON BEHALF 
                OF THE NATIONAL LEAGUE OF CITIES

    Ms. Nytes. Thank you and good morning, Chairman Dodd and 
Members of the Committee. I am grateful for the opportunity to 
speak to you today on behalf of the National League of Cities 
and the thousands of locally elected municipal officials like 
myself who value the important partnership that our American 
cities have long shared with the Federal Government. We have 
accomplished so much together. The Livable Communities Act will 
ensure that we continue to do so in even better ways than 
before, despite the increasing demands on available resources.
    Across America, rapidly changing economies, demographic 
shifts, environmental pressures, and aging infrastructure keep 
us in local government awake at night. City governments and 
their local partners work hard to deliver the many programs 
developed and funded by Congress. We are immensely grateful for 
the opportunity those programs have given us to address the 
challenges inherent in sustaining and growing our old cities, 
new suburbs, and small towns.
    Reviewing the purposes of the Livable Communities Act, I am 
encouraged by the recognition that these many programs cannot 
be allowed to act as single instruments but, in fact, will 
achieve their greatest impact if they play as an orchestra 
providing coordinated and integrated support. From my own 
experience, I want to speak to the value of such united efforts 
to underscore the importance of the approach that is called for 
in the Livable Communities Act.
    In Indianapolis, we have a number of redevelopment efforts 
underway, each of them the product of extensive, community-
driven planning and engagement.
    In the Binford Redevelopment and Growth area, referred to 
as BRAG, residents and area businesses originally joined 
together simply to fight blight and sprawl. They have since 
become a united voice to spearhead six issues: pedestrian 
access and connectivity, business development, crime reduction, 
increasing green space, sustainability, and the development of 
transit-driven opportunity.
    In the Mapleton Fall Creek area, where portions of this old 
neighborhood were 50 percent vacant and abandoned, a community-
based development corporation expanded its focus from 
affordable housing to a vision of comprehensive community 
redevelopment where they understand that removing blight, 
creating green space, restoring commercial and retail services, 
as well as enhancing transportation options are all necessary 
to transform a neighborhood built in the 20th century for 21st 
century lifestyles.
    In the Martindale Brightwood community, long abandoned rail 
yards and former industrial sites are now being rescued and 
repurposed for urban agriculture, transit-oriented development, 
and the provision of new schools and recreational 
opportunities.
    All these stories lead one to ask why, if cities are doing 
so much already with our Federal dollars, would we need the 
Livable Communities Act?
    We need it because we must encourage the shared sense of 
vision about the work to be done. The most sustainable growth 
must be nurtured from every possible angle. Cities cannot just 
fix houses or just build parks. They cannot just enhance 
mobility by either adding sidewalks or more transit options. 
Cities must do all of these things in concert, and we can only 
act in concert back home in our cities if the programs 
supporting our efforts share this holistic approach.
    Given the current and near-term fiscal environment, local 
governments are working hard to continue to identify ways to 
improve efficiency and streamline the delivery of services to 
lessen the impact of the downturn on the families living in our 
neighborhoods. The Livable Communities Act would help our 
cities achieve these goals by formalizing the links between the 
different Federal agencies that every city and town comes into 
contact with--facilitating the interdependency of programming 
that we have come to understand is critical.
    In Mapleton Fall Creek, they are building highly energy 
efficient homes and they are retrofitting 90-year-old homes to 
meet the highest current energy standards, but trying to help 
the financial industry appreciate what these energy savings can 
mean to the financial capacity of a first-time home buyer is 
still a challenge.
    In BRAG, developing that new transit stop means that 
families can afford to stay in their homes in that area even if 
the jobs have moved elsewhere because the decreasing costs of 
transportation and increased access give them more affordable 
options.
    In Martindale Brightwood, the resurgence of community 
gardens and schools that value walking and riding over 
automobiles allow that community to tackle a frightening trend 
in the younger populations of our inner city--childhood 
obesity.
    This can all happen when we focus the resources of 
community development programs such as the Community 
Development Block Grant Program, the transit and other housing 
programs, the energy efficiency programs, the finance and 
mortgage regulators, and those who help us fund our 
infrastructure--all on the same prize: healthy, livable 
communities.
    I commend Senator Dodd and the other sponsors of this 
legislation for seeking input from the National League of 
Cities and other local government groups from the very 
beginning, and I urge this Congress to continue your role as a 
great partner for our American cities. We still have a lot of 
work to do.
    Chairman Dodd. Thank you very, very much. I appreciate 
that.
    Mr. McKinney, welcome.

  STATEMENT OF JOE McKINNEY, EXECUTIVE DIRECTOR, LAND-OF-SKY 
 REGIONAL COUNCIL, ASHEVILLE, NORTH CAROLINA, ON BEHALF OF THE 
        NATIONAL ASSOCIATION OF DEVELOPMENT ASSOCIATIONS

    Mr. McKinney. Thank you. Good morning, Chairman Dodd and 
Members of the Committee. I want to thank you for the 
opportunity to testify today and share our region's perspective 
on the Livable Communities Act. Again, my name is Joe McKinney 
and I am the Executive Director of the Land-of-Sky Regional 
Council headquartered in Asheville, North Carolina. I also 
serve on the Board of Directors of the National Association of 
Development Organizations.
    Mr. Chairman, NADO fully supports the principles set forth 
in the Livable Communities Act and remains deeply committed 
toward maintaining and enhancing key aspects of the 
legislation.
    First, we strongly urge the legislation reserve no less 
than 20 percent of the regional planning and program 
implementation resources for small metropolitan and rural 
areas.
    Second, retain the bill's focus on incentivizing regional 
development strategies that are locally developed and locally 
controlled on a voluntary basis, absent any Federal mandates.
    Third, solidify and maintain the strong ownership role 
envisioned for local governments and the valuable partnership 
role outlined for regional councils in coordinating sustainable 
development, planning, and implementation activities.
    The Land-of-Sky Regional Council serves as administrator 
and provider of a number of transportation, economic 
development, energy efficiency, and environmental programs that 
our local governments have identified as critical for 
sustaining quality of life and economic opportunity in our 
four-county region. Despite being a predominately rural area, 
our local officials, in partnership with other businesses and 
community and civic leaders, have already begun the process 
that is focused on sustaining our community's assets while 
providing economic opportunities for our residents. I would 
like to briefly describe a few of those initiatives.
    First, as an Economic Development Administration designated 
Economic Development District, we have developed a 
comprehensive economic development strategy for our region that 
has helped connect our area's jobs and our job creation 
strategies with fundamental principles for sustainable 
development. This was a process that our local leaders 
initiated in 2007. This process has led to a partnership 
between our 19 local governments and the region's Chamber of 
Commerce, private foundations, and nonprofits to launch the 
Western North Carolina Livable Communities Initiative, which 
combines our region's economic development strategies with the 
six livability principles outlined.
    Second, for over 18 years, our organization has 
administered a Waste Reduction Partners Program which uses 
highly experienced volunteer and retired engineers and 
scientists to provide our region's businesses and industries 
with waste, water, and energy reduction assessments and 
technical assistance. Since that time, this program has helped 
reduce the participants' utility costs by more than $23 million 
and greenhouse gas emissions by more than 125,000 tons. The 
program has also helped conserve more than 600 million gallons 
of water and reduced the amount of solid waste in our landfills 
by 200,000 tons. While the program embraces the essential 
principles of sustainability, it is firmly rooted in enhancing 
the economic competitiveness of our area businesses and 
industries.
    Third, in 2002, the Land-of-Sky Regional Council became one 
of the first organizations in a rural area to address 
brownfield redevelopment on a regional basis. In the 8 years 
our organization has partnered with the EPA, we have helped 
turn more than 20 abandoned properties with environmental 
impairment into vibrant working and productive properties. As a 
mountainous community with limited developable areas, it is 
critical that we are able to reuse and repurpose land to 
generate and spur economic activity.
    Finally, our organization serves as the primary planning 
agency for coordinating transportation investments in our 
metropolitan and rural communities. In this capacity, we are 
tasked with coordinating a variety of projects that not only 
enhance the capacity of our existing transportation network, 
but also those that enhance alternative transportation options 
and those that allow our region to become more self-sustaining 
with regard to fuel production and consumption.
    In closing, Mr. Chairman, the Livable Communities Act would 
provide our region with the resources needed to fully integrate 
and implement these individual strategies and programs into a 
larger, cohesive vision for our area of Western North Carolina 
and take the next steps necessary to ensure our vision for 
sustainability and economically competitive region can become a 
reality.
    Again, thank you for the opportunity to testify and I 
welcome any questions.
    Chairman Dodd. Thank you very much. I appreciate it very 
much.
    Lyle, it is good to see you. I welcome you to the 
Committee, and you were very helpful, of course, a few weeks 
ago when we had our meetings in Connecticut with the Secretary 
of Transportation, so we welcome you to the Committee this 
morning.

 STATEMENT OF LYLE D. WRAY, EXECUTIVE DIRECTOR, CAPITAL REGION 
COUNCIL OF GOVERNMENTS, HARTFORD, CONNECTICUT, ON BEHALF OF THE 
           NATIONAL ASSOCIATION OF REGIONAL COUNCILS

    Mr. Wray. Thank you, Mr. Chairman. Good morning. Chairman 
Dodd and Members of the Committee, I want to thank you for the 
opportunity today to speak in favor of the Livable Communities 
Act. My name is Lyle Wray. I serve as the Executive Director of 
the Capital Region Council of Governments serving the 
Metropolitan Hartford area. We are about 800,000 people. I also 
serve on the Executive Director's Committee of the National 
Association of Regional Councils and I am speaking on their 
behalf today.
    Today, I want to address the need for the Livable 
Communities Act from the regional planning perspective, 
something we do day in and day out, and I want to use my own 
region as an example of some of the things we are already doing 
and how the Livable Communities Act would help us to make a lot 
more progress going into the future.
    The National Association of Regional Councils is the 
national organization representing Regional Planning 
Organizations, urban and rural, large and small, throughout the 
country. The National Association and its members, like CRCOG, 
is governed by local elected officials and provides advocacy, 
technical assistance, and training to advance the capacity of 
these Regional Planning Organizations to meet the kinds of 
needs that have been discussed so far this morning. The entire 
U.S. population is covered by a regional council under one name 
or another. We call them Metropolitan Planning Organizations or 
Economic Development Districts or Planning Development 
Councils.
    More than ever, Regional Planning Organizations, both in 
rural and urban areas, are being called on as ways to help 
local governments save money, time, and achieving outcomes 
through working together with resources and developing 
integrated solutions to some of our most complex challenges.
    The Act would provide even more opportunities and 
incentives for regional collaboration to interweave strategic 
regional transportation, economic, and environmental, as well 
as land use, housing, and other aspects through a locally 
created and approved comprehensive regional plan. These plans 
provide the framework by which local governments, businesses, 
community groups, and citizens working through a regional 
council can determine the needs of communities and desires as 
well as guiding the allocation of collective resources and 
capabilities. The Act would support the ways we already 
nurture, enhance, and protect our regions and communities of 
all sizes and different make-ups to ensure that our unique 
characteristics, histories, and offerings and preserved and 
expanded for future generations.
    So without providing mandates or other requirements, the 
Act would give us much needed competitive funding to move 
forward on work that we are trying to do to make communities 
better places to live, work, and play, and to raise families. 
It would assist in fostering community-driven comprehensive 
planning and investments that are cost effective and efficient, 
reduce congestion, generate good-paying jobs, meet 
environmental and energy goals, and provide affordable housing, 
protect rural areas and green space, and revitalize main 
streets and urban centers.
    Let me just turn for a moment to the Metropolitan Hartford 
Region, I think, and give some concrete examples of what might 
be done with this. As you know, Chairman Dodd, the Metropolitan 
Hartford Region is at the crossroads of the Interstates of 84 
and 91 and we have almost 800,000 people, and in that region, 
half the freeway congestion is on one stretch of I-84 west of 
downtown Hartford, 50 percent of the congestion, which has been 
a sort of burr under the saddle of local elected officials for 
many years.
    Ten years ago, a very comprehensive planning process looked 
at various options. Do you build rail, do you expand the 
freeway, or do you do a bus rapid transit? And after a very 
long process, we came up with a bus rapid transit option of 9.4 
miles going from Hartford to New Britain Southwest. What is 
interesting about that, it joins two areas of redevelopment, 
the West End of downtown Hartford and downtown New Britain, 
with a series of stations along the way, all of which need 
redevelopment. And so this is a classic example of work we have 
begun working on that would allow us to leverage the major 
investments that were potentially coming.
    We are on the threshold now of getting $1.5 billion of 
support for the commuter rail work, which you have been doing 
very strongly, from Springfield to New Haven and New York, as 
well as the bus rapid transit investment. But linking that 
investment to better opportunities for housing, jobs, and 
environmental improvement, I think, is going to be what the 
Livable Communities Act allows us to do.
    We did a study with the Regional Planning Association of 
New York that showed that by intensifying transit use in our 
region, we could save 5 to 20 percent of the carbon footprint 
in the region without any major dislocation, which is an 
amazing achievement that would be doable, and would help us to 
provide housing alternatives so we would stop the outflow of 
24- to 35-year-olds that we have been experiencing since the 
1990s, a huge outflow of young professional talent, and we 
believe that transit-oriented development would be one of the 
ways to help stem that tide.
    Increasingly, more Americans, in fact, are choosing to live 
in these types of areas, transit oriented development, and your 
findings in your Act talked about somewhere around 30 percent 
of the people would choose housing in the transit oriented 
development type. Right now, 75 percent of Americans would 
actually support public transit and housing around them, 
according to a study in 2007 by the National Association of 
Realtors. So there is a need here for helping to provide what 
people want that is currently being unmet.
    As I begin to conclude my testimony, I wanted to hark back 
to something that was done in Hartford in 1957. I was on a 
tricycle at the time, but it was still important. Lewis 
Mumford, a noted urban expert, keynoted a major conference in 
Hartford barely a year after the Interstate Highway Act was 
passed and he had a very strong presentation where he cautioned 
that unless you are very careful, if you just build highways 
without integrating that with land use, bad things will happen 
to you. So in 1957, he said, be very careful that you don't 
produce a lot of sprawl and kill the core cities. Now, this is 
a matter of record in 1957 at a major conference.
    This Act today, I think, is partly a restitution of some of 
the challenges that have come about by not integrating land use 
and environmental planning with highway planning and transit 
planning that we talked about in 1957. So it is actually sort 
of back to the future in terms of that comment, but it really, 
I think, speaks to the kind of challenges we have.
    So my Regional Planning Organization and others around the 
country have the mechanisms, the capacity, and the willingness 
to move forward to help implement the Livable Communities Act 
provisions and we look forward to the opportunity to do that, 
and I thank you today for the opportunity to speak on behalf of 
the Act on behalf of the National Association of Regional 
Councils. Thank you, Chairman Dodd, for all your work.
    Chairman Dodd. Thank you very much, Doctor. I appreciate it 
very much.
    Ms. Gouge, you are our final hitter here. You have actually 
been elected a mayor, too, so you know what it is like to go 
through that election night, so we welcome you.

    STATEMENT OF JULIA W. GOUGE, PRESIDENT, BOARD OF COUNTY 
   COMMISSIONERS, CARROLL COUNTY, MARYLAND, ON BEHALF OF THE 
                NATIONAL ASSOCIATION OF COUNTIES

    Ms. Gouge. That is right. I do. And Chairman Dodd, I 
appreciate very much the opportunity to be here, and to the 
Members of the Committee. I am Julia Gouge, President of the 
Carroll County Board of Commissioners, member of the National 
Association of Counties Board of Directors Environment, Energy, 
and Land Use Steering Committee and the Rural Action Caucus. 
And we do thank you very much for the opportunity to testify on 
the Livable Communities bill, S. 1619, and it is my privilege 
to represent NACo today.
    NACo is the only national organization representing 
America's 3,068 counties, supports the Livable Communities Act 
to provide incentive grants to local areas for regional 
planning around housing, transportation, environment, energy, 
land use, and health initiatives. Last year, NACo passed a 
resolution supporting your legislation.
    Rural, suburban, and urban counties have been pursuing 
local strategies to create livable communities and implement 
sustainable development for decades. NACo has worked to support 
our members in achieving sustainable development for more than 
15 years through assistance on issues including smart growth 
and planning, sustainable economic development, and business 
retention. Priorities now include clean energy development and 
disaster recovery. In 2007, NACo began the Green Government 
Initiative, providing comprehensive resources for local 
governments on all things green.
    Planning for sustainable communities is, by nature, a 
regional effort. Whether individually with neighboring 
jurisdictions or through Regional Councils, counties have the 
primary role in planning and economic development decisions 
impacting and determining growth, development, and livability. 
Many rural and midsize counties would like to begin sustainable 
planning and development but lack the resources to do so. The 
grants would be available to meet the needs of the counties to 
begin the process for sustainable development or for 
implementation, which is why this legislation is so very 
important.
    Carroll County, Maryland, has a population of 175,000. We 
have created three LEED certified green buildings which are 
oriented for site optimum lighting and solar control, extensive 
stormwater management, geothermal systems, and the use of high 
recycled content materials. To reduce our carbon footprint, we 
invested in the purchase of hybrid cars for our fleet as well 
as hybrid vans for our transportation system within Carroll 
County.
    Carroll County also participates in the Energy Management 
Initiative provided through partnership with the Baltimore 
Metropolitan Council, or the BMC. In fiscal year 2009, Carroll 
County estimated an electricity savings from BG&E of $900,000. 
We are an active participant on the Regional Sustainable 
Council of the BMC, promoting coordinated policies amongst 
regional districts and jurisdictions to adopt alternative 
energy and sustainable plans.
    To preserve our rural history, we implemented an 
installment purchase plan for farm preservation, and this 
allows us to purchase development rights by leveraging our 
money so more land can be purchased at today's prices. To date, 
we have placed over 60,000 acres into permanent preservation on 
our farms and our goal is 100,000 acres, which is one-third of 
our county.
    NACo continues to believe sustainability should be 
voluntary and encouraged through a Federal grant program 
rewarding regions and communities undertaking sustainable 
programs. We do not believe sustainability should be a 
condition for receiving housing, transportation, and other 
traditional sources of Federal funding. NACo believes all 
communities should be eligible for the program and we support 
funds being set aside for a subcategory of all rural areas. 
Rural communities represent the majority of the Nation's land 
mass and most counties are rural by population. In fact, 2,835 
counties, over 90 percent, have populations below 200,000, many 
below 100,000, and many below 50,000.
    Due to the difficult times of our economy, it is more 
important than ever that counties have the support of 
neighboring jurisdictions as well as State and Federal 
resources. Efforts at local and regional planning are hindered 
when Federal funds are not granted directly to local 
governments. NACo appreciates that the bill allows counties to 
receive the funding directly, and I think that is most 
important.
    And so today, I do thank you for the opportunity to 
testify. We appreciate the opportunity, Chairman Dodd, and look 
forward to working with you.
    Chairman Dodd. Well, thank you very, very much. Your timing 
of your testimony was perfect, because my friend from Montana 
has arrived and I could see his head jump up as you started 
talking about development rights and preserving farmland in 
rural areas. No one defends rural areas better than the Senator 
from Montana and understands where the future may be. Montana 
is in the lucky position of being able to manage this better 
than some of our other States did who didn't appreciate what 
was going on years ago.
    Ms. Gouge. That is good.
    Chairman Dodd. I am going to ask to put in the record, by 
the way, we have some 200 local and national organizations have 
endorsed this bill, which is pretty stunning, considering we 
are almost really in the early stages of this, in the next few 
months, and they run the gamut, you might imagine. I won't read 
the list, obviously, but I am going to ask consent that it be 
included in the record so we get some sense of the kind of 
national support this legislation has been able to gather.
    Chairman Dodd. I am going to take a few minutes on some 
questions and then I will turn to my colleague from Montana.
    Let me first of all raise the issue, because all four of 
you here represent public entities, in a sense, cities and 
counties and regional bodies around the country, and there is a 
cost obviously associated with this. We are talking about 
planning grants, then we are talking about real money to come 
in to actually provide assistance once the communities have 
made decisions to move forward.
    But I think we need to also--several of you mentioned this, 
and I think it needs emphasizing--the kind of economic 
development from a private sector perspective, I think is going 
to be an important consideration here as we look down the road, 
the kind of cost savings involved, as well, being able to 
reduce, if the numbers I have been given are accurate, that you 
can actually reduce the cost of an average family's 
transportation cost by $9,000, that is not insignificant on a 
yearly basis occurring.
    And to have economic development and business advantages 
associated with sustainable development, I don't think we have 
been as--we haven't taken as much time to emphasize the 
importance of that aspect of this and I wonder if you might. 
Maybe we will begin with you, Dr. Wray, if you would talk about 
that, because I think that is a very critical component in all 
of this.
    I mentioned earlier home values, for instance. In North 
Carolina, in Charlotte, when they put a light rail system in, 
the values of real estate along that light rail system 
increased tremendously. Contrary to what we have grown up to 
think, if you lived near the railroad tracks, property values 
went down. We are living in a very different era today. 
Actually, that is a desirable place to be, and so there is that 
advantage from a business perspective.
    But I wonder if you might just comment on the economic 
value to this beyond the cost associated, which is obviously 
going to be a concern, and legitimately so, of my colleagues. 
What do I tell them about economic development and business 
growth as a result of livable communities?
    Mr. Wray. Mr. Chairman, I think that is perhaps the unsung 
story here, which is I will give you an example. In the 
Metropolitan Hartford area, we are in the middle of combining 
sewer overflow separation, not a very sexy topic, but 
basically, by doing green infrastructure, we could probably 
save $500 million by having less water go into the sewer system 
and having to scale it down. So by having things like permeable 
pavements and holding ponds and rain gardens and other kinds of 
things. So development costs related to things like sewer 
construction could be cut perhaps by a third or a half by using 
these kind of sustainable models. So that is one very simple 
example.
    The second, as mentioned before in terms of buildings, LEED 
certified buildings and others that reduce energy consumption 
for businesses have a way of dramatically reducing the cost of 
operating.
    The third aspect, though, is the employee cost, getting 
people to and from the office and the inefficiencies of people 
stuck in traffic for a half-an-hour or an hour on either end of 
the day, walking to work or being able to take a break and 
having employees arrive in a less frazzled state. It is kind of 
hard to measure. But just the very dimensions of employees as 
participating in economic growth is very important.
    And then the last but not least, I think, Senator, one of 
the things that I think we are seeing around the country is 
that sustainability is becoming an industry in itself. Some of 
the major industries in Connecticut, United Technologies and 
others, are in this as a business. So there is a sort of direct 
aspect to this in terms of energy management systems, fuel cell 
alternatives, and other kinds of aspects, alternative 
transportation, where sustainability is actually a business in 
itself.
    So this is really kind of a very multifaceted set of 
savings, but one is you can save perhaps a third or a half on 
some infrastructure. You can reduce electric consumption. You 
can have more available convenient workforces. And then the 
actual aspect of sustainability is a business in itself, that 
the actual content of energy management systems and other kinds 
of things becomes a major employer.
    Chairman Dodd. Does anyone else want to comment on this at 
all?
    Mr. McKinney. Sure. I will just give a different 
perspective, and that would be that coming from a rural 
mountainous community in North Carolina that is heavily 
dependent on tourism, the economic development focus of our 
land use decisions are primarily to continue that 
sustainability, and having the good fortune to be in Montana, I 
am sure their economic development strategy is the same, and 
that is we have got to have our natural assets to continue to 
attract the tourism. We have got to maintain from an 
environmental standpoint good air quality. There is not going 
to be a lot of economic development in my region if there is 
nothing--the visibility is limited to see the beautiful 
mountains.
    So the land use decisions that our local governments make a 
lot of times have a direct impact on our economic development 
from a tourism standpoint, and so this bill, I think, 
incorporates many of those planning activities that we are 
already doing in support of the economic development in my 
region.
    Chairman Dodd. Yes, Ms. Nytes?
    Ms. Nytes. Yes, Senator. One of the things in this bill 
that I think is particularly valuable in this regard are the 
references to some research that is authorized in the bill in 
which there will be attempts made to further document the 
actual value of the location efficiency and the transportation 
efficiency, the mortgage efficiency, if you will. Those are 
factors that we find sometimes the rest of the business 
community or the development community and some of the local 
government officials still are not educated enough about.
    And the language in this bill that calls forth for some 
additional research and reporting on those factors, I think 
will go a long way in promoting good decision making at the 
local level about sustainable communities. A lot of times, I 
think the local government officials are hesitant to make some 
of the tough calls that need to be made about encouraging this 
kind of development because they don't have enough information 
to back them up. This bill will assist in that fashion, as 
well.
    Chairman Dodd. And, Ms. Gouge, what are your thoughts, 
representing a rural county in Maryland, of this?
    Ms. Gouge. Well, one of the things that we have been doing 
in Carroll County since the mid-1960s is our master plan----
    Chairman Dodd. Is that microphone on?
    Ms. Gouge. Is it OK?
    Chairman Dodd. Yes.
    Ms. Gouge. One of the things we have been doing in Carroll 
County since the mid-1960s is our master plan, where we had 
planned to put all of our growth in and around our eight 
municipalities. That has worked very well, because we really 
wanted to put our growth where our services were, police, 
garbage pick-up, water, sewer, that type of thing, and it has 
worked very well, but at the same time, we are now facing, as 
these towns grow, they need help, as well, with many of this 
type of planning.
    We as a county work with them, but at the same time, they 
need to do a lot of these things to promote within the economic 
development. We are seeing a lot of streets on our cities right 
now. They are fairly small, but a lot of them are seeing a lot 
of closed doors for economic development. So there are a number 
of things that could really help something like this.
    When we look at other counties across the Nation, and I 
have talked to a lot of people at our national meetings, they 
are small counties and they do not have the people to do 
things. We have a planner, an economic development person, 
someone for recreation, and that type of thing, someone for 
tourism. But you take a small county in the Midwest or in the 
South, wherever, and even some counties in Maryland, they have 
one person who does all four of those jobs. So, consequently, 
they don't have the staff to do the work. They don't have the 
ability to do the research. And if we have something like this 
bill that is going to give them equal opportunity to apply for 
some of these grant monies, it is going to make all the 
difference in the world.
    Chairman Dodd. Well, very good.
    Let me ask you one last question. I see my good friend and 
colleague from Virginia has joined us, as well. I thank Senator 
Warner for coming this morning.
    We have had a tremendously positive response to the 
legislation from all over the country, from diverse 
communities, small and large, and you have offered your 
testimony this morning to that effect. One of the commonalities 
among responses has been the frustration at the barriers that 
exist in the type of sustainable, livable planning, and you 
have just highlighted that, Ms. Gouge, with your comments.
    I wonder if you could just describe some of these 
additional obstacles that you see. Obviously, personnel, the 
resource capacity in smaller communities and counties, 
obviously the pressures that everyone is facing today 
economically. And so we want to make good decisions. We want to 
make sound planning decisions for our communities. Obviously, 
cost is a barrier. But are there other factors that contribute 
to this, as well, that we should be aware of?
    Doctor, do you want to share some thoughts?
    Mr. Wray. Mr. Chairman, thank you. I think that is a 
critical question. The first, I would suggest, might be very 
close to this room, which is silo funding. We get funding in 
silos. Your efforts to get the Administration to work on an 
interagency fashion is most welcome, but we need to do the same 
thing at the local level.
    Chairman Dodd. Mm-hmm.
    Mr. Wray. So we get funding that comes in a slot so we can 
get our State transportation program approved and we get down 
the slot. One of the things we need to do, and this is hard 
work, and a barrier, is to work across. But we don't have in 
our State a working group at the same level that you have at 
the Washington level. And then the question is, how do we 
actually get those silos to integrate so that you do 
transportation that makes sense for economic development that 
makes sense for housing that makes sense for the environment.
    So that is the first barrier, is getting the regional and 
State agencies to work sideways the same way, which I think is 
a huge barrier, because even though at this level the Federal 
Government is now working on an interagency fashion, the other 
layers are not always in the same alignment.
    Chairman Dodd. Mm-hmm.
    Mr. Wray. The second one is the major barrier is the simple 
cost. It is much easier to do a greenfield site and put a 
shopping center in a cornfield than it is to take a brownfield 
site that has multiple ownership disputes, that has all kinds 
of other limitations, maybe small parcels that need to be 
assembled. And so part of that is just the nature of complexity 
of pulling together redevelopment as opposed to development.
    Of course, in Connecticut, as you know, with a 150-year 
history of industrialization, we have a lot of brownfield 
sites, but also very well located sites that are convenient. So 
we have that barrier of assembling sites and cleaning things 
up. It is much harder to do than just moving to greenfields. So 
complexity is one barrier.
    And the last one, I think, is long term versus short term. 
Many times, finance is on a very short basis. What can you show 
me in the next 90 days? Some of the sustainability issues are a 
much longer perspective.
    As an example, we have two to three million acres of 
struggling strip malls in the United States that are not very 
financially viable, two to three million acres, which is 
absolutely amazing, and many of them are near transit and many 
of them are near existing major highway infrastructure that 
would be perfect for redevelopment into housing and mixed use 
with some work. But that is a long-term perspective. It is a 
lot easier to just go out to a greenfield and start from 
scratch and build mixed-income housing than it is to sort of 
take on that two to three million acres of struggling strip 
malls in the country and sort of say, how do we turn this into 
something different?
    We have in our package that was submitted to the Committee 
a report called ``Gray Infrastructure: From Gray to Green,'' 
where we have a pilot in one of our regions in the city of 
Manchester, Connecticut, that looks at how you take a dead 
strip mall and turn it into a sustainable mixed-use, mixed-
income development that is environmentally friendly. But the 
point about that is, it is way more complicated. There are a 
lot more moving parts, Senator, to getting that whole package 
put together than just walking up the road 10 miles and putting 
in a new development.
    So I think those are the major things, the silo funding, 
that we still have to work hard on integration with the 
reauthorization of the transportation bill. Perhaps how that 
evolves could be helpful there. The greenfield versus 
brownfield complex is just a lot more complicated. And then, 
finally, this long-term perspective. It takes time to address 
those two to three million acres of struggling shopping centers 
around the country, but they are a great opportunity. I mean, 
some people talk about them as the land bank of the future, 
that struggling strip malls are the land bank of the 21st 
century. So I think there is some optimism there, as well.
    Chairman Dodd. Just quickly, on that point, I remember when 
we dealt with the brownfields legislation, we made, I thought, 
a very intelligent decision that in order to remediate, to 
clean up these sites, we didn't insist that it ought to be so 
clean that you could put a child care center on it----
    Mr. Wray. Right.
    Chairman Dodd. ----but that if you had an alternative idea, 
if it wasn't going to pose the kind of risks obviously that you 
want an infant child in the midst of, that that would make some 
sense, being the alternative, you couldn't do anything. If you 
couldn't make it that clean, it was sitting there vacant.
    It seems to me that in order--we ought to incentivize this 
kind of idea you are talking about so that it actually becomes 
an attractive financial investment for someone willing to make 
or take that property and begin to turn it into something that 
is also a tax-producing property and providing the kind of 
either housing or commercial space that would make it work.
    Mr. Wray. Mr. Chairman, I think the point in Connecticut is 
on the commuter rail line from Hartford to New Haven and the 
busway line that is planned from Hartford to New Britain, we 
have about probably 15 downtown areas that have exactly the 
kind of sites you are talking about. But pulling it together, 
you know, the issue of brownfields and how they could be 
cleaned up, we did a major clean-up site, as you well know, in 
the Goodwin College area on the Connecticut River with help 
from you and others. That can be done. But the upshot of it is, 
I think is the barriers you just asked about when you talk 
about those 15 city town centers with multiple ownership, 
multiple brownfield sites, small parcels that need to be 
assembled, redevelopment in a green sustainable infrastructure 
way.
    All I am suggesting is that is why we need this bill. It is 
a heavy lift, because someone might ask, well, why don't you 
just do it? Well, because we have been working on it. We have 
been doing our homework on station area planning and 
brownfields and so on, but there is a lot of work to be done to 
weave all those pieces together. And, as I say, the 15 station 
areas that we have on the drawing board in Connecticut could 
use this help, but most of them are brownfield sites. Most of 
them need assembly of land into larger parcels that would be 
suitable for construction for private sector.
    Chairman Dodd. Yes. Let me turn to--I have taken a lot of 
time. I want to come back to this point. I know you all have 
points you want to raise, as well, but let me turn to Senator 
Tester because I have taken a lot of time.
    Senator Tester. Thank you, Mr. Chairman. I want to thank 
the panelists for being here, and you are astute in your 
analysis of the thoughts running through my head as the 
Commissioner was talking.
    I want to start with Dr. Wray. You had talked about back in 
1957, back in the tricycle ages when an individual talked about 
highway systems encouraging sprawl and how in retrospect he was 
spot on in his analysis. I don't want to put words in your 
mouth, but that is what I heard, and I agree with that.
    In many areas, I think, of the country, but in many areas 
of Montana in particular, noting that planning is a local duty 
and should be a local duty because the challenges in every area 
is a little bit different as you go around the country, 
education is so critically important because a lot of people 
don't understand, as they did in 1957, they didn't understand 
how important planning was, and today, that attitude still 
exists. We end up building our houses on the best farmland 
available. We end up dealing with septic systems that in a few 
years or decades we find out are polluting our water and we 
have got to spend a bunch more money. Anyway, we all know how 
important planning is.
    The education component of this bill, where does it fall 
in? Is it adequate? Is it even there? And is that something we 
should pay attention to?
    Mr. Wray. Senator, thank you very much for the opportunity. 
Even though I live in Connecticut, I was born about 70 miles 
north of Havre, so I am pretty familiar with their neck of the 
woods.
    Senator Tester. My gosh, that is Alberta.
    Mr. Wray. Medicine Hat.
    Senator Tester. Oh, really?
    Mr. Wray. Yes.
    Senator Tester. Born in the Hat. All right.
    Mr. Wray. Yes. I knew Great Falls better than my hometown, 
so thank you, Senator. I had cowboy boots before I had dress 
shoes.
    [Laughter.]
    Senator Tester. You are all right in my book.
    Mr. Wray. But I don't tell anyone that in Connecticut.
    [Laughter.]
    Mr. Wray. I think the idea of a sustainability group that 
is talked about for the regions for this education, where you 
bring together private sector, public sector, and others in a 
consortium to talk about these ideas, it is extremely 
important, and we started to do that in the Hartford, 
Connecticut area, which has been very powerful. But the 
builders' association, developers, private investors, and 
others, and they get it.
    The idea of green infrastructure, when you say you can cut 
your sewer costs in half or by a third by doing different kinds 
of stormwater--when I was a county manager, the idea was to get 
stormwater off the grass and onto a blacktop and into a sewer 
as soon as possible. That was sort of what I was taught. And 
now we are saying, flip that all around, saying keep it in 
holding ponds, rain gardens, and so on. But the point about 
that is, when you bring all those people together in a group, 
so our sewer authority, our developers begin to have 
conversations that are, I think, mutually educative.
    Senator Tester. OK.
    Mr. Wray. The second thing, I think, is that the private 
sector is not sitting on its hands here. The LEED certification 
in many of our private sector buildings is coming along. But I 
think convening people who are working on these areas together, 
and I think it is extremely important to get investors, 
developers, contractors, road associations together in the room 
so we all talk on the same sheet of music.
    So that education is not abstract. It is about projects. 
And, as I mention, we have almost a billion dollar combined 
sewer overflow project going on in our region, and when we 
knocked on the door of the regional sewer authority and said, 
we could actually save a lot of money by doing green 
infrastructure, trust me, they took our call and said, can you 
meet, like, later today? So that education function, I think, 
is proceeding apace.
    Senator Tester. OK, and it is adequate in the bill simply 
because you are automatically bringing folks together for a 
common goal?
    Mr. Wray. Yes.
    Senator Tester. OK. That is good. I want to talk the 
Commissioner a little bit. Julia, you talked about 
subcategories for rural in your testimony--and I think that is 
interesting--to ensure that rural is able to share in the pie.
    Ms. Gouge. Right.
    Senator Tester. Is there population levels that you see--
and, I do not know, I mean, we are talking--you know, there 
is--I mean, I come from a town of 700 people. It is 120 miles 
south of Medicine Hat. But there are a lot of towns of 3,500 in 
the State of Montana, I mean, a lot of them that have some 
challenges. Do you see this bill being able to work for them? 
And is it structured so it can work for them?
    Ms. Gouge. I think it is most important that these small 
counties and small areas be concerned, and maybe we need to 
emphasize it even more importantly that the smallest areas are 
just as important as the large cities.
    The biggest problem, I think, that is going to be for any 
of the smaller areas is whether or not they have the ability to 
have grant writers or people who can really get to the 
information itself. Sometimes it is more difficult. We have 
good grant writers right now in my particular county, but I 
have talked to a lot of other small counties, and they say, 
``We do not even have anyone our staff such as that.'' So how 
do we reach those smaller jurisdictions that they can be 
included, that they feel they are part of this whole plan?
    If we do not start with the small areas like that, we are 
going to lose our land mass. I mean, there is no question. You 
were just talking about, you know, development overall. We are 
facing right now, just as you said, houses that were built in 
small towns or villages that really have no water or sewer 
system, trying to find monies--and we really work through the 
USDA bill to see if we could get some grants for some of those 
small towns. But the cost would be about $400 a month for them.
    So, in-filling some of the areas is almost impossible at 
times, you know, even though everybody talks about the in-fill. 
But if you do not have money for water and sewer systems, you 
cannot even begin some of those processes. So we need to really 
be thinking in the broad point of view for the small 
communities. How do we reach them? Are we making it more 
difficult for them to find the monies and then to actually use 
them?
    Senator Tester. OK. Thank you.
    Thank you, Mr. Chairman.
    Chairman Dodd. Thank you, Senator.
    Senator Warner, welcome.
    Senator Warner. Thank you, Mr. Chairman, and I apologize to 
the panel about missing your testimony, but this is an area 
that I have interest in as well. Before I had this job, I was 
Governor, and this concept of livability is something that we 
have wrestled with at some level in the Commonwealth of 
Virginia and continue to wrestle with and a lot of the issues--
I do not reveal this often, although the Chairman often reminds 
folks whenever we are together I actually grew up in 
Connecticut. I try not to emphasize that in Virginia too often.
    [Laughter.]
    Senator Warner. But, you know, I am familiar with some of 
the challenges there, but we have got the same----
    Chairman Dodd. We brag about you all the time.
    Senator Warner. ----challenges in Virginia, where we have 
got enormous growth opportunities, and that question of, you 
know, go down the road and build a new shopping center versus 
the in-fill. We have got a lot of that in some of our inner 
suburbs in Northern Virginia, for example, a lot down in 
Hampton Roads as well.
    So I believe in the concept and, you know, I am very 
interested in learning more about this legislation and commend 
the Chairman and those who have been cosponsors already. I am 
trying to get more comfortable with it myself.
    There are some--you know, this is going to be a tougher row 
to hoe in today's climate than it was even a couple years back, 
I sense. You know, there is an enormous--you know, the 
immediate critiques of this bill will be, you know, is it just 
about squishy livability; you know, is it once again the 
Federal Government further extending its reach into areas that, 
as my colleague from Montana, Senator Tester, said, has always 
been appropriately a local process? And, you know, the payback 
timeframe on any new initiative I think now is going to be at a 
level of scrutiny, at least I personally hope, that we need to 
be unprecedented.
    So I guess--and just, again, as a set-up, one of the other 
areas that I have been big on has been Government performance 
and metrics, and they have actually given me a little portfolio 
on that here to try to keep me quiet in the Senate. And one of 
the things I have wondered about is, you know, as we think 
about livability, is there a way--and this is for anybody on 
the panel to respond to--that we can define this with metrics 
that are truly measurable, that can--to make sure that we might 
have a more full participation actually from our Committee on 
both sides of the aisle on a future basis so we can make the 
case that this is value-add, that there is a way to measure the 
performance of livability, that we could even go--and I would 
even like to extend the question to the question of, you know, 
is there an ability to--and this would be relatively radical, 
but, Ms. Gouge, as you have mentioned, you know, to actually 
tie Federal grant awards based upon meeting some of these 
metrics or based upon kind of having this collaboration at the 
local level and that collaboration in having all of these 
groups participate in this planning process would enhance the 
ability to receive Federal or State funding. So, you know, how 
do we make--how do we move this from being a good-government 
concept into today's more hard-nosed metrics and appropriately 
cost-contained world? Anybody want to take a crack at that?
    Mr. Wray. Can I start, Senator? And then we can go from 
there.
    Senator Warner. Yes.
    Mr. Wray. Performance measurement is one of my passions, 
too, and I have been published in the area for a long time. 
This is a very complex area, and this will require a 
constellation of measures, so there is not one measure, but 
what I was saying before is cost of infrastructure. When you 
look around the world, places have done cost of infrastructure 
estimates with more sustainable models. It is in the 20- to 30-
percent savings range, whether it is sewer systems, electric 
plants. By having more compact development, you save money. So 
just in terms of the hard-nosed numbers, you will not find a 
single measure. That is one.
    I think one of the----
    Senator Warner. Well, let me just interject here one 
moment. It seems to me--and I think your example earlier was 
dead on--that when the developer says it is easier to go do 
that greenfield site, to develop that commercial shopping 
center--let us take that example--the cost equation that goes 
into the developer is really the cost of the land, the cost of 
the processing permit, but the added infrastructure burdens 
that we, the public, have to pick up, to take on, to build the 
road infrastructure to get to that shopping center is never 
factored in. How do we make, you know, all the externality 
costs truly fit in so there can be a real, better business case 
analysis of how we do the in-fill in a better way?
    Mr. Wray. Well, Senator, you have put your finger on one of 
the things, because some people would say this is social 
engineering and we should not be doing that. Well, 90 percent 
Federal funding for an interstate highway system and mortgage 
interest deduction are social engineering, if you want, too, 
which is pushing it in a certain direction. So the policies you 
set here in terms of tax policy and investments really do set 
directions.
    The point you are mentioning I think is a very complex one, 
and that is, in many systems we have gotten into trouble 
because the externalities are not priced in, so pollution has 
not historically been priced in to certain things in terms of 
auto emissions for a long time. Transportation costs have not 
been factored into building highways further out and so forth.
    That is the kind of work I think that goes onto the 
research side of this, which is various parts of the world are 
struggling with very similar issues. We are not unique in that 
circumstance. I think we have to look at--I think one aspect is 
revealing these costs. One of the things that has not been done 
is just putting these things out on the table. Many times 
people do not understand these costs.
    The second, though, I think is the reduction of the effort 
to do brownfield development. We have to make it a lot easier 
for a developer just in terms of getting through red tape and 
threading a needle. When you look at--we have a recent proposal 
in Connecticut for transit-oriented development off of a spur 
line on the Metro North line, and they had a list of the 
funding arrangements and regulatory approvals. It took two 
PowerPoint slides with small type. That just would not be true 
if you were doing greenfield. So we need to streamline at the 
local level, too, some of the processes for getting through the 
regulatory thicket. It is not just money.
    So the points you are mentioning are very large points. I 
think it goes to the transportation reauthorization bill in 
terms of Secretary LaHood talking about livability as one of 
the dimensions of projects. I think how we structure the way we 
issue money here already I think is one of the aspects.
    But the metrics, I think, for this are complex. Let me give 
you one example. The European Union has a very nice book with 
two pages for each metropolitan area, and this does not speak 
to the rural areas, but it is equally true there. On the left-
hand side is, ``Where does your carbon come from, your carbon 
dioxide come from?'' On the right-hand side, ``What are 
sensible mitigation strategies that actually are progrowth 
competitive positioning?'' In other words, here is one set of 
metrics that they are using, which is here is where you carbon 
dioxide is coming from, here is what you can do in terms of 
transit-oriented development or changing your sourcing for 
electricity or whatever it is on the right-hand side. But those 
are the kinds of things that have to get developed.
    Again, how that actually gets done is incentives for local 
governments making decisions and then finally developers I 
think is critical, but I think carbon emissions is one. Time in 
congestion is another metric. There is a whole series of these 
that would have to be articulated, and the point you mentioned 
I think is a critical one, and that is, bringing the 
externalities back into the decision.
    Just as an example of that, 2 to 3 million acres of 
struggling or dead strip malls in the United States, you know, 
that is a cost right now. And the question is, How do you look 
at the 20- or 30-year horizon of redeveloping those in ways 
that are sustainable and sensible for economic development? But 
I think one of the real problems here is the time horizon for 
some of these things might be a little longer than the private 
sector is comfortable making. If you are looking at speculative 
office buildings or speculative commercial, they do not have 
the kind of timeframes that would perhaps be supported right 
now unless we have them think in a different way.
    Senator Warner. Do others want to comment on this question?
    Mr. McKinney. Sure, briefly I will address that. I think 
one difference in this bill is the fact that there is 
implementation dollars at the end of the rainbow that I think 
motivates local governments to plan rather than just make a 
plan and hug and go home. So with those implementation dollars, 
I think you can then look at how do you measure the success of 
those. And I think we are working with EPA on a number of 
grants now on measurability, and one of those certainly is 
reduction of utility costs. I think there is a dollar amount 
you can place on that that our planning efforts led to this 
reduction, measuring greenhouse gas emissions, a reduction 
there, as well as private leveraging. I mean, I think these are 
not the only dollars that are going to go into implementing a 
regional sustainability plan. In fact, I think you are probably 
aware that the Ford Foundation yesterday pledged $200 million 
to livability principles that are contained in this very bill.
    So I think there are measurables that you can establish 
because there is--at the end of the rainbow, it is not just 
development planning and hoping you find money, but there is 
incentive to do that, and then I think you could measure your 
success based on a couple things that the EPA is already doing.
    Ms. Nytes. Senator, I am very excited to hear of your 
interest in performance measurement and subsequently, I assume, 
performance management. The National League of Cities and 12 
other groups have actually been engaged over the last year in 
trying to come to some agreement about the language and the 
approach and the important considerations as we ask 
governmental units to use those very tools in managing their 
resources better going forward.
    I do think there is a very important role for the Federal 
Government in these discussions. I do not think it is just 
squishy, as you said. But, in fact, the problem that we have is 
that it is a big-picture problem and it is a long-term problem, 
and the improvements have to be measured over time.
    In the case, for example, of some of our older cities, it 
is going to take some time, but if we do these things right, 
over time we are going to find that pockets of our cities that 
have had low per capita income, for example, or low per capita 
education, for example, or that have had high utility cutoffs 
or any of these other indicators that we use to try to 
determine what is the quality of life in an area, if we make 
the right choices about energy-efficient homes, easy access to 
transportation, the reuse of existing structures, whether they 
be old schools or old factories, however we do these things, 
over time those indicators will rise. Right now in an area like 
Indianapolis, if you look at the outer ring around the city 
over the last 10 years----
    Senator Warner. I was actually born in Indianapolis and 
lived there for a decade as well.
    [Laughter.]
    Ms. Nytes. Well, then, you know of what I speak. 
Absolutely. The indicators in the outer ring have risen while 
the indicators in some of the inner neighborhoods have fallen. 
But it takes a long time for that to change, and it takes 
multiple agencies coordinating efforts to bring about that 
change, and that is where I do think the Federal Government 
does have an important role.
    Senator Warner. Julia, did you want to add something? And I 
just had one more comment, and my time has run over.
    Ms. Gouge. I just think it is very important for goals to 
be made--for the counties to reach or whoever happens to be 
doing this, and I know as a commissioner on programs that we 
are funding directly from county government as well as grants, 
I am constantly asking, you know, what are the results of this, 
what have we been able to do, how has our money really been 
used. And I think it is only natural that the Federal 
Government, if they are giving out grants, should have goals.
    I do agree that sometimes you cannot see that goal in 6 
months. It might take several years until you would really see 
the full extent of the value. But if we do not have some of 
these things, a lot of it is not going to happen. And Senator 
Dodd talked about the land we are losing every year, and we are 
losing it because people can go out in that clean area, build 
houses, put it on private septic and wells, where if they had 
the incentive to bring some of those things in closer to the 
municipalities, we would use that land, we would in-fill, and 
the reality would be our land would be so much better. The 
energy costs would be so much less. All of the things that we 
have been talking about in this bill could actually become a 
reality if we were able to help some of those things.
    Senator Warner. Well, three quick points, and, again, my 
time has gone way over. One is, you know, I think you need 
those metrics that are understandable and translatable beyond 
Government performance geeks like us--you know, that are 
understandable, number one.
    And, number two, to Mr. McKinney's point, I think there 
ought to be some ability to then say that those implementation 
dollars at the end of the rainbow, that there ought to be 
differential grantmaking based upon whether you have met these 
criteria of proving that you are going to hit these metrics and 
their cost-effectiveness.
    Number three, again, back to Dr. Wray's point, one of my--
and this is politically incorrect to say, I acknowledge, but, 
you know, one of my great concerns as a former Governor was 
that, you know, I would--my friends in the environmental 
community would appropriately be concerned about sprawl and 
raise those issues, but then be unwilling to relax--and the 
Chairman raised this on the brownfields issue, which I think, 
you know, then we would still not be willing to relax any of 
the in-fill process requirements that make the project not 
viable. You know, it is just whacky. You cannot have it both 
ways. There is going to have to be that moment of judgment that 
the enhanced value of the in-fill, those 3 million acres of 
dead strip malls, it is devastating to leave them there for 
communities, and particularly, you know, in terms of older 
cities, appropriately your process.
    And then just one last process thing, and this is more 
about Senate process than anything. The transportation modes 
that have been advocated in the bill have been mostly transit-
focused, and they are appropriate for this Committee and 
needed. But at some point if the bill reaches the floor, it 
needs to include highway and congestion pricing around highway 
transportation, and particularly other rail modes as part of 
this overall structure.
    I really appreciate the Chairman and appreciate his 
leadership on this issue.
    Chairman Dodd. On that point, obviously that is the case. 
My concern has always been about these issues, that the transit 
version or transit part of the transportation bills have always 
been just almost an afterthought. You do not have to be a Ph.D. 
in political science. When you get 80 cents on the dollar from 
the Federal Government to build a highway and you get 20 cents 
to build a transit system, which of the two are you going to 
take? And so aside from whether or not you want to have an 
alternative available, it is just--talk about a metric that 
works against you. When Uncle Sam is going to give you 80 cents 
on the dollar as opposed to 20 cents on the dollar, which of 
the two are you going to choose? And so all we are doing is 
trying to create some sort of a level playing field that allows 
communities to make those intelligent decisions. If it is the 
highway that is the thing they need, then they ought to have 
the ability to get whatever level of support you are going to 
provide but not discriminate against the alternative means of 
transportation, which in many of our areas today, given the 
examples that can be set by other communities, or around the 
world for that matter, what they have been able to do with this 
in terms of these other issues I think is very, very important 
as well.
    I was going to raise a couple of other questions for you, 
and, of course, one of the things about this, this is all 
purely voluntary in a sense. This is not a question where Uncle 
Sam is going to come in and tell you what to do. But what we 
are looking for here is to be able to take hard-earned taxpayer 
money that comes to Washington to really get it back to 
communities, communities that have the appetite to want to move 
in this direction, to either preserve rural space, to encourage 
tourism in an area, to take brownfields in older cities, 
industrialized places, to make them work. And they are working. 
It is wonderful. You talk about places that are really working, 
you got to a place like a Portland, Oregon, where I was not 
long ago--Jeff Merkley was here a while ago--a city that was in 
real trouble, and, again, with a light-rail system coming in, 
they made some very intelligent decisions. Portland is a very 
viable city. I have got some family in the room here today. 
Providence, Rhode Island, has been a great story that has 
happened, not many years ago a place that was in real trouble, 
typical of many industrialized cities. Today, a very livable 
city. Real estate values are up. People are living there. There 
is a lot of activity going on. You can give example after 
example of places that are working and getting this done in 
different ways.
    So I am excited about the concept and the idea, and I just 
want to raise a couple of issues, if I could. I have got a 
series of questions which I may submit to all of you as well to 
respond. I am not going to take a long time with you here. But 
I wanted to raise with you, if I could, Dr. Wray--you have 
mentioned here and I have mentioned the Charlotte, North 
Carolina, light-rail system and what a value and difference 
that made in that community's sustainable and smart growth. You 
know we have been working at home with the Governor and so 
forth--you had mentioned the New Haven to Springfield, 
Massachusetts, line. I wonder if you can just discuss the 
opportunities for development that that new transit corridor or 
transit corridors like that to communities and some of the 
challenges they face in moving that kind of development 
forward. And I think you have addressed this already by talking 
about all of those criteria you have to meet in order to do 
this and how discouraging it can be and why developers do not 
want to step up and do it. And I am just a great believer--we 
have got to learn how to cut through a lot of this. Here we are 
moving forward. The biggest hang-up we have got here now are 
the environmental issues. Now, they are very important, but if 
you cannot get through it and you lose those resources, then 
everything else fails, in my view.
    But I wonder if you might just comment on that briefly and 
then ask others to address that issue.
    Mr. Wray. Mr. Chairman, I was frankly mystified that we 
have to do an environmental impact statement in full regard for 
a 150-rail raid bed, but maybe I am just a little thick. But 
that is another story. The Federal NEPA process is rather 
interesting.
    We have a lot of communities that are excited and chomping 
at the bit to move on the commuter rail line and the busway 
line. Basically you have, in the case of Springfield to New 
Haven and from Hartford to New Britain, as I say, a dozen and a 
half communities that have downtowns that are struggling. Even 
within Hartford, the part near Union Station is struggling.
    So in all these areas, you have usually brownfields, 
usually small sites that need to be assembled, and complex sets 
of ownership. And where I think the Livable Communities Act 
would be very helpful in terms of the implementation side is 
helping to pull together all those things, like master 
agreement, very boring kind of basic development services kind 
of functions that are very hard to do.
    Now, we have been doing brownfields work in the region with 
help from you and others to get moving on this, but the point 
about it is the assembly of land, the organization of parcels 
needs to be done on a larger basis. And, frankly, as you were 
mentioning, we have many small communities--our largest city is 
120,000, and they are much, much smaller than that. And so 
sometimes we need a regional attempt to help smaller 
communities along the line take advantage of these station 
areas.
    We have places like Windsor Locks near the Bradley Airport, 
Windsor and other places that are ready to go, very excited 
about this bill, and would look very much forward to helping. 
But it is taking older, somewhat polluted sites, assembling 
them, redeveloping them, getting them ready, as you say, not 
for use as a playground for children but for more commercial 
uses that takes some work, and it is actually a very complex 
and, unfortunately, lengthy process to get that done.
    Chairman Dodd. I should point out, by the way--and, Julia, 
you will appreciate this. I will not bore the Committee with 
the history of this, but Connecticut is one of the few States 
in the country that does not have any county government. We 
did. And I have to watch every bill that comes through because 
most legislation is written and where counties are the 
political entity that we provide resources to, and if I do not 
watch every bill to make sure that towns and communities, with 
my 169 cities and towns in a State that is 110 miles by 60 
miles in size, I mean, I did not say it when Jon Tester of 
Montana--he has got counties that are twice the size of my 
State in terms of geographically speaking. But we have to watch 
it all the time. We got rid of county government. This was 
devolution of government back in the 1950s, and we have paid an 
awful price for it over the years, and trying to get 
cooperation, I want to recognize Dr. Wray's efforts in that 
regard, and other leaders of our Council of Regional 
Governments in Connecticut that have done a good job with that.
    I wonder if you might comment on the--I mentioned the 
demographic issues, and I want to turn to some of our other 
witnesses here. I was sort of stunned by the very numbers as I 
read them over with my staff last evening about the number of 
households declining with 18-year-olds or younger in them, and 
getting down to the point where only a quarter of our homes by 
the year 2050 will have 18-year-olds or younger in their homes 
today. And obviously an aging population, a great credit to our 
health care system and other things, lifestyles, people living 
longer, healthier lives. But, obviously, their needs differ, 
and so I wonder if you might comment briefly on this. I will 
begin with you, Jackie, if I can, and just share some thoughts 
on the demographic issues and whether or not and how you are 
addressing those questions.
    Ms. Nytes. Thank you, Senator. I am glad you have returned 
to that. When you mentioned it in your opening remarks, I was 
reminded once again of how serious I think this is.
    If we all think just in our own worlds of the number of 
people we know who are living to an age where they should no 
longer be driving or at least should no longer be driving on 
interstates, and yet, of course, we want for our populations to 
stay active. Our older populations are saying very active. They 
need a way to move around our communities, and that comes back 
to some of the core concepts of this legislation, which is 
walkable communities, for example, communities that have fully 
integrated multimodal transit systems, which means buses and 
light rail, those other kinds of things. People have got to be 
able to get from one side of town, downtown to go to a Sunday 
afternoon symphony performance because they want to but they do 
not want to drive anymore. They need to be able to get to a 
grocery store, but they do not necessarily want to get in the 
car and take the interstate out to the super store, which takes 
longer to walk through than they can even have the energy for 
any longer. So, clearly, the length of our life is changing our 
patterns, and we have got to be thinking about this.
    It also impacts a lot of supply-and-demand issues in our 
communities. In many of our older communities, we now have 
empty or near-empty schools, and we have suburban pressures to 
build new schools. Well, if we look over the long run, the day 
is going to come when we are going to have empty schools out 
there, too, and so if we do not focus on in-fill construction 
and on trying to change the paradigm that Ray Suarez talked 
about in the old neighborhood where it was this constant 
pattern of out-migration, if we do not find a way to get people 
to think about the American dream in a different way, we are 
going to have a lot of half-empty buildings that governmental 
units are trying to support and do not have the tax base to 
keep up. And I think looking at it through the lens of the 
demographic change is actually something that people can 
process. Decision makers can get that if we talk about it 
enough and we help them do the match to understand what it says 
about the provision of services, and then ultimately at the 
local level the payment for those services.
    Chairman Dodd. I think marketing, too. We know it is how 
people perceive life to be, and if someone--I live seven blocks 
from this building in an area on Capitol Hill, aside from, 
obviously, my home in Connecticut. I have seen change in the 
last few years in this city in terms of what is available, how 
we spend our weekends and time. And I have two very young 
children. It is becoming very, very livable. My daughters are 
taking a swimming lesson tonight, and there is a dance class 
around the corner. There is a library down the street. There is 
the Eastern Market on weekends. There are all sorts of things 
that you do not normally associate with the inner city--not 
that I am necessarily in inner city, but living in an urban 
area. So, again, marketing these places as viable, vibrant 
communities I think can do a lot.
    Julia, do you want to comment on this as well, the 
demographic issues.
    Ms. Gouge. Yes. We are actually considered an aging group 
in the Baltimore region. We call ourselves the graying group, 
but the reality is more and more, particularly in my county, 
the homes are being built for 55 and over and definitely no 
children can be included in any of those homes. We have two 
very large complexes run by religious organizations but for 
hundreds and hundreds of people owning their own home, going on 
then to assist living, even then to nursing homes all within 
the same facilities. So people can go there, and that is really 
part of their lifestyle now to know that they can truly grow 
old there with someone taking care of them.
    But one of the other things we are finding besides all of 
these 55-and-over homes that are being built is the senior 
centers. Since I have been a commissioner, we have built five 
senior centers, and two of those we have actually changed and 
enlarged quite a bit. There are hundreds of people that come 
every day, and the activities are so diverse so that the people 
can truly come there, feel like this is one very large family, 
whether it is woodworking, whether they are playing pool or 
bingo or some other thing, or doing crafts. The lessons, the 
community college comes in and teaches classes all the time to 
our seniors as well.
    So this is the graying community, and we are having to work 
with them. And, of course, the senior centers, I mean, they 
just love them because particularly widows or widowers can now 
come and really become a part of the community again. And so 
many of them said, ``We would not even be alive today, we do 
not believe, if we would not have had these activities and 
people to really care about us.''
    So I think that is going to be even more important in the 
future. If you think a county of our size that can have five 
large senior centers plus all these other things, it is obvious 
what people truly need.
    Of course, whenever I talk to seniors, I always encourage 
them: Have you been to our senior center? Please go. You will 
feel wonderful. And that is keeping our people healthier 
longer.
    Chairman Dodd. That is good.
    Let me mention, if I can, I was curious whether or not any 
of you were involved in this. HUD recently announced the 
availability of $100 million for sustainable communities 
regional planning grants. It is very close, obviously, to the 
planning grants we have authorized or would authorize in this 
bill. I have heard a great deal of excitement about the program 
at the Hartford session we had, Doctor, with HUD and DOT and 
EPA officials. I wonder, is this the kind of program your 
communities are interested in applying for? And does it offer 
any lessons that we ought to be looking at in our Livable 
Communities Act? And I suspect, Joe, you may be--the question--
it is a grant, planning grants, but it does not have that 
rainbow you talked about at the end. Am I anticipating an 
answer to my question?
    Mr. McKinney. I think there is at least a small pot at the 
end of the rainbow in terms of that grant, and I am glad you 
brought that up.
    I will say that back home in Asheville today we have about 
90 local officials meeting with HUD, EPA, DOT, and other 
Federal agencies to talk specifically about livable communities 
and the HUD opportunity. So I would like for you to write me a 
letter of excuse for my absence there today.
    But I will say that that opportunity has really excited our 
community, and, again, going back to the fact that it is not 
just planning for planning's sake, that HUD I think is offering 
an opportunity for communities to come together and look at a 
coordinated planning process that at the end of the day is not 
just a document that sits on the shelf. And we have been 
fortunate to have started that process regionally a couple 
years back, but the HUD opportunity I think is exciting a lot 
of communities. And I think our group has said if we never see 
a dollar from that, starting that process of getting people to 
the table to talk about coordinated planning efforts, 
transportation, housing, environment, and so forth is the start 
of our livable initiative in our region.
    So we are excited about that opportunity, as I am sure 
others at this table are as well. So that is a good start.
    Chairman Dodd. Anybody else want to comment on that? Yes, 
Doctor?
    Mr. Wray. Mr. Chairman, we are very excited. We actually 
have been working with the Pioneer Valley across the border in 
Massachusetts. We are actually part of a two-State region, as 
you know, between Springfield and Hartford. So we have been 
working on this.
    And back to your point about the pot of gold at the end of 
the rainbow, the initial concept was to have no more than 20 
percent on planning, a very broad regional discussion and sort 
of important things like affordable housing, transit-oriented 
development and so on, but reserving 80 percent of the money 
for actually doing something with the plan. So there would be 
subchallenge grants to the regional communities once the plan 
was approved to actually do something with this.
    Chairman Dodd. That is encouraging.
    Mr. Wray. So we think it is important because I think we 
have all been around the planning business long enough to sort 
of--as you say, the ``plan, hug, and go home'' model really 
does not work very long. But we have had a lot of excitement 
around it. Frankly, there was a little jostling and elbowing 
about who gets the money, which you might expect. But the good 
news I think we see this as a template for working together for 
the next 10 or 20 years.
    Chairman Dodd. That is good.
    Mr. Wray. Because the integration of environment, 
transportation, economic development across a corridor like 
that we think is the way we are going to be doing a lot of 
work. So it is not just getting ready for the T-HUD grants; it 
is really the issue of working this way together over the long 
haul, plus the sustainable Capitol Region Initiative which we 
are working on. So we see the T-HUD money as helping and moving 
in that direction, but, again, our idea would be to reserve 80 
percent for actually doing something on the ground.
    Chairman Dodd. Jackie.
    Ms. Nytes. Senator, I could answer the question better on 
Friday because tomorrow at lunch we are meeting with the 
Assistant Secretary from HUD back in Indianapolis to discuss 
this. I can tell you more in a follow-up.
    Chairman Dodd. Drop us a note afterwards.
    Ms. Nytes. We will be happy to. Thank you.
    Chairman Dodd. Julia, any comments on this?
    Ms. Gouge. Just that our regional planning council, the 
Baltimore Metropolitan Council, is working on a number of these 
things and on transportation, a very long range program for 
energy efficiency, all of those things, yes.
    Chairman Dodd. Let me ask you to do me a favor. I am going 
to wrap this up, but I have a couple other questions. I think 
we have covered the rural stuff very well. I thought Senator 
Tester's questions, obviously interested in that. The health 
issues you have addressed as well, I think. All of you have 
commented to one degree or another about the importance of the 
health aspect of this thing, which we have not really 
addressed. So those are sort of the remaining questions I had 
for you on this subject matter.
    But I would like you to--the first question I asked you was 
one that I can sense already--and you heard it from Senator 
Warner, and it is a very legitimate question, and it is one 
that you obviously think about all the time because you have to 
ask yourself the same question every time you talk about these 
issues, and that is, these economic metrics in a sense.
    I would like you to contribute to my conversation with my 
colleagues about this because I anticipate a very legitimate 
question coming. We are asking for an authorization of $400 
million for the planning grants for the country. We are asking 
for an authorization of something in excess of $3 billion for 
actually implementation grants on this. At a time, obviously, 
when the country is deeply concerned about rising deficits, how 
do you pay for this, what are the benefits to come out of this 
thing, what are the costs and so forth, we need to have better 
answers than we have.
    All four of you can really help, I think, by giving us some 
ideas that you obviously understand already, that you can--
there are huge cost savings involved both for individuals, for 
communities, and for the Federal Government, if we think about 
this and recognize the value of investing in this area, how 
much of a return comes immediately back to our Nation as a 
result of this.
    So I would be very interested in having for the benefit of 
the Committee as we move forward with this to be able to 
respond intelligently to these questions, and obviously, you 
have thought about them, so that would be a great help to us. I 
will ask you if would you do that in the coming couple of weeks 
as we think about moving forward.
    You have been tremendously helpful this morning. I am very, 
very grateful to all four of you for your knowledge, and I 
thank you for your service as well. I was deeply impressed, 
looking over your resumes, how every single one of you has been 
deeply involved in your communities for a long time, even 
running for public office, Julia. I have often thought--someone 
once said that--I say this facetiously before I read about it 
tomorrow in the paper--that in order to vote, you have to run 
for public office. You do not have to get elected. You just 
have to know what it is like to have a screen door slammed in 
your nose.
    [Laughter.]
    Chairman Dodd. That joy of facing people who are in this 
day and age obviously as angry as we have ever seen them, and 
with a lot of cause and justification. Things are not moving as 
well as we would all like them to be. But I admire people 
immensely. The toughest politics in the country are at the 
local level. You do not get to leave town. You do not get to go 
to your capital city and get away. You certainly do not get to 
go to Washington and get away. You make decisions at night. You 
get up in the morning, and your kids and your family will be--
you do not have to wait a week to get a response. People let 
you know before the ink is dry. We do not celebrate enough, in 
my view, in the country the people who literally as volunteers 
basically, is what it comes down to, it is really almost 
volunteering, what they do every single day in those 3,000 
counties and the thousands and thousands of communities across 
our country, good people who get up every day to try to improve 
the quality of life of the people of their community at the 
local level. And we ought to do more to celebrate what you do 
every day, so I thank you immensely for your service to your 
communities and to our country.
    With that, the Committee will stand adjourned.
    [Whereupon, at 11:46 a.m., the hearing was adjourned.]
    [Prepared statements, responses to written questions, and 
additional material supplied for the record follow:]

            PREPARED STATEMENT OF SENATOR RICHARD C. SHELBY

    Thank you, Mr. Chairman.
    Given the poor history of urban planning in the United States in 
the 20th century, I believe it is worth noting that each of our 
witnesses have had successes with locally driven community planning 
initiatives.
    Unlike the central planning of the 1960s that bulldozed entire 
neighborhoods, built expressways through city centers, and established 
acres of public housing units, today's witnesses planned with an eye 
towards the consumer, incorporating pedestrian-friendly city centers, 
accessible parking and public transportation; all in full partnership 
with private enterprise.
    With the documented successes achieved through local initiative and 
ingenuity, I question the centralized approach to planning that is 
being advocated today.
    I am eager to hear from our witnesses about how their locally based 
planning successes would have been affected if the legislation we are 
discussing had been in place when they were developing their master 
plans.
    The legislation is designed to encourage localities and regions to 
plan cities and neighborhoods that incorporate public transportation, 
pedestrian and bicycle paths, more affordable housing, and 
environmentally friendly, sustainable development.
    This ``encouragement,'' however, is really a mandate as the Federal 
dollars would only be provided if the plans meet specific requirements.
    While there are some benefits to these goals, decision making 
should always be made at the State and local level. It is fundamental 
that each community be allowed to employ the means of development that 
best meets the needs of its citizens.
    A quick comparison of the planning requirements and residential 
needs of Tuscaloosa, Alabama, to those of East Haddam, Connecticut, 
Hoboken, New Jersey, Salt Lake City, Utah, or Billings, Montana, would 
yield significantly different results.
    Legislation that dangles a $4 billion pot of money in front of 
cash-strapped communities to ensure that they plan according to a 
Federal master plan is not what this country needs. Whether it is a 
voluntary grant program or not, the intention is clear, do it the way 
the Federal Government has decided it should be done.
    While I am eager to hear from our witnesses, I continue to believe 
that planning and zoning decisions are best left at the State and local 
level. The Federal Government does not have the answer to every problem 
and it certainly should not have the keys to cities all across the 
country to do with them what it will. I am concerned that is where this 
legislation is trying to lead us.
    Today's approach is often driven by the marketplace and supported 
by cities and communities--quite different from the top-down, cookie 
cutter approach planners took in the 60s.
    Governors, Mayors, and City Council members are learning that it 
takes a coordinated public/private approach to implement a 
comprehensive master plan. Through locally determined--not federally 
established--standards and requirements, communities all across America 
are experiencing ``guided'' growth that meets the needs of their 
citizens.
    Thank you Mr. Chairman.
                                 ______
                                 
                   PREPARED STATEMENT OF JACKIE NYTES
City-County Councillor, City-County Council of Indianapolis and Marion 
      County, Indiana, On Behalf of the National League of Cities
                              June 9, 2010

    Good morning Chairman Dodd, Ranking Member Shelby, and Members of 
the Committee. Please allow me if you will to offer a special greeting 
from the folks back home to our Hoosier Member of the Committee, 
Senator Evan Bayh.
    I am grateful for the opportunity to speak to you today on behalf 
of the National League of Cities and thousands of locally elected 
municipal officials like myself who value the important partnership 
that our American cities have long shared with the Federal Government. 
We have accomplished so much together. The Livable Communities Act will 
ensure that we continue to do so in even better ways than before, 
despite the increasing demands on available resources.
    Across America, rapidly changing economies, demographic shifts, 
environmental pressures and aging infrastructure keep us in local 
government awake at night. City governments and their local partners 
work hard to deliver the many programs developed and funded by 
Congress. We are immensely grateful for the opportunity those programs 
have given us to address the challenges inherent in sustaining and 
growing our old cities, new suburbs, and small towns.
    Reviewing the purposes of the Livable Communities Act, I am 
encouraged by the recognition that these many programs can not be 
allowed to act each as single instruments, but in fact will achieve 
their greatest impact if they playas an orchestra providing coordinated 
and integrated support. From my own experience, I want to speak to the 
value of such united efforts to underscore the importance of the 
approach called for in the Livable Communities Act.
    In Indianapolis, we have a number of redevelopment efforts 
underway, each the product of extensive, community driven planning and 
engagement.
    In the Binford Redevelopment and Growth area (BRAG), residents and 
area businesses originally joined together to fight blight and sprawl. 
They have since become a united voice to spearhead six priority issues: 
pedestrian access and connectivity, business development, crime 
reduction, increasing parks and green space, sustainability, and the 
development of transit driven opportunity.
    In the Mapleton Fall Creek area, where portions of the old 
neighborhood were 50 percent vacant and abandoned, a community based 
development corporation expanded its focus from affordable housing to a 
vision of comprehensive community redevelopment where they understand 
that removing blight, creating green space, restoring commercial and 
retail services and enhancing transportation options are all necessary 
to transform a neighborhood built in the 20th century for 21st century 
lifestyles.
    In the Martindale Brightwood community, long abandoned rail yards 
and former industrial sites are now being rescued and repurposed for 
urban agriculture, transit oriented development and the provision of 
new schools and recreational opportunities.
    These stories lead one to ask why, if cities are doing so much 
already with our Federal dollars, do we need the Livable Communities 
Act?
    We need it because we must encourage a shared sense of vision about 
the work to be done. The most sustainable growth must be nurtured from 
every possible angle . . . cities can not just fix houses, or just 
build parks, or just enhance mobility by either adding sidewalks or 
more transit options--cities must do all of these things in concert and 
we can only act in concert back home in our cities if the programs 
supporting our efforts share this holistic approach.
    Given the current and near term fiscal environment, local 
governments are working hard to continue to identify ways to improve 
efficiency and streamline delivery of services to lessen the impact of 
the downturn on the families living in our neighborhoods. The Livable 
Communities Act would help cities achieve these goals by formalizing 
the links between different Federal agencies that every city and town 
comes into contact with--facilitating the interdependency of 
programming that we all have come to understand is critical.
    In Mapleton Fall Creek, they are building highly energy efficient 
homes and retrofitting 90-year-old homes to meet the highest current 
energy standards and trying to help the financial industry appreciate 
what these energy savings can mean to the financial capacity of a first 
time home buyer.
    In BRAG, developing the new transit stop will mean that families 
can afford to stay in their homes in the area even if the jobs have 
moved elsewhere because the decreasing costs of transportation and 
increased access give them more affordable options.
    In Martindale Brightwood, the resurgence of community gardens and 
schools that value walking and riding over automobiles allow the 
community to tackle a frightening trend in the younger populations of 
our inner city--childhood obesity.
    This all can happen when we can focus the resources of the 
community development programs like the Community Development Block 
Grant Program, the transit and the housing programs, the energy 
efficiency programs, the finance and mortgage regulators and those who 
help to fund our infrastructure--all on the same prize: healthy, 
livable communities.
    I commend Senator Dodd and the other sponsors of this legislation 
for seeking input from the National League of Cities and other local 
government groups from the very beginning; and I urge this Congress to 
continue your role as a great partner for our American cities. We have 
much work yet to do.

Attachment

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   PREPARED STATEMENT OF JOE McKINNEY
  Executive Director, Land-of-Sky Regional Council, Asheville, North 
    Carolina, On Behalf of the National Association of Development 
                              Associations
                              June 9, 2010

    Thank you, Chairman Dodd, Ranking Member Shelby, and Members of the 
Committee, for the opportunity to testify today to share our region's 
perspective on the Livable Communities Act and the need to better 
integrate housing, community development, transportation, and 
sustainable development policies.
    My name is Joe McKinney. I serve as Executive Director of the Land-
of-Sky Regional Council, a regional planning and development 
organization serving 19 communities in Western North Carolina. Our four 
county region has a population of approximately 385,000, anchored by 
our largest city, Asheville, with a population of 78,000. My 
organization is a member of the National Association of Development 
Organizations (NADO) and I currently serve on the NADO board of 
directors.
    The National Association of Development Organizations (NADO) 
provides advocacy, education, research and training for the national 
network of 520 regional development organizations. NADO members--known 
locally as councils of governments, economic development districts, 
local development districts, planning and development districts, 
regional councils and regional planning commissions--are focused on 
strengthening local governments, communities and economies through 
regional collaboration, comprehensive development strategies and 
program implementation.
    Our Nation's regional development organizations manage and deliver 
a variety of Federal and State programs. Based on local needs and 
priorities, programs may include aging, census, community and economic 
development, emergency management and homeland security preparedness, 
GIS, housing, small business development finance, transportation and 
workforce development. A policy board of local elected officials, along 
with business, education and citizen representatives, governs and sets 
the priorities for each regional organization.
    NADO and its members fully support the Livable Communities Act and 
appreciate the indispensable role the legislation outlines for regional 
councils in coordinating and administering sustainable development 
planning and implementation activities with our local governments along 
with business, community and civic leaders. We encourage the Committee 
to retain the legislation's focus on supporting and incentivizing the 
development and implementation of regional strategies that are 
regionally focuses and locally controlled on a voluntary basis.
    We want to strongly avoid Federal mandates and requirements on 
regional and local planning, yet also provide the incentives, tools, 
ideas and program framework to reward and encourage regional planning 
and development that links community and economic development, housing, 
and transportation in a more strategic and sustainable manner.
    Despite being a predominantly rural community, our region's 
leadership has been actively involved in comprehensive planning for 
many years. With an economy heavily influenced by tourism, the 
Asheville region has focused on sustaining our communities' assets 
while continuing to provide economic opportunities for our residents. 
In my testimony today, I will offer examples of how the Livable 
Communities Act can support our regional and local initiatives, as well 
as similar efforts across rural America.
    Mr. Chairman, to give you a better understanding of who I 
represent, it is important to point out that our organization has been 
in existence since 1966 and is led by local elected officials--mayors 
and county commissioners--as well as representatives from the private 
sector and minority communities.
    Land-of-Sky Regional Council's mission, as adopted by the board of 
directors, is to foster desirable social, economic, cultural, and 
ecological conditions in our four-county area. The work of the 
organization is supported through a variety of funding sources, 
including local, State, Federal, and private investment dollars.
    Specific program services provided to the region's communities 
include economic and community development planning, environmental 
planning and implementation, regional transportation planning, housing, 
land use planning, and aging planning and service delivery.
    I would like to highlight four specific program areas that I feel 
are relevant to the Livable Communities Act and provide you with some 
background on how our small metropolitan and rural communities are 
already planning for the implementation of this legislation.
    First, Mr. Chairman, within the transportation arena, the Land-of-
Sky Regional Council serves as the primary planning agency for both the 
Metropolitan Planning Organization (MPO) and the Rural Planning 
Organization (RPO) in Western North Carolina. These entities are 
partnerships between local and State governments that make strategic 
transportation planning decisions in urban and rural areas and fulfill 
the planning requirements established by Federal and State authorizing 
legislation.
    Essentially, our organization is where the ``rubber meets the 
road'' in terms of making local decisions on which roads are built or 
improved, what alternative transportation options are available, and 
how we work together as a region to be more self-sustaining with regard 
to fuel production and consumption.
    Our organization is currently in the process of developing a Long-
Range Transportation Plan that will incorporate the livability 
principles set forth in this legislation. This includes increasing 
transportation choices for our citizens while protecting and developing 
our environmental assets which are important to our mountain 
communities.
    Second, Mr. Chairman, I believe our Waste Reduction Partners 
program fits perfectly within the principles set forth in the Livable 
Communities Act. This program, which has been in existence for 18 
years, utilizes highly experienced volunteer and retired engineers and 
scientists to provide our businesses, industries and institutions (both 
public and private) with waste, water, and energy reduction assessments 
and technical assistance.
    This specific program has had an amazing impact on the region's 
quality of life, including total utility savings costs of more than $23 
million and a reduction in greenhouse gas emissions of more than 
125,000 tons. The program has resulted in more than 600 million gallons 
of water conserved and 200,000 tons of solid waste reduced in North 
Carolina.
    The Waste Reduction Partners program already embraces essential 
principles of sustainability by enhancing our businesses and 
industries' economic competitiveness while preserving and protecting 
the beautiful Asheville and surround region's environment.
    Third, Mr. Chairman, the Livable Communities Act can have 
significant impact on ongoing brownfields redevelopment in rural areas. 
Brownfield sites are abandoned or underused industrial and commercial 
facilities available for reuse. Expansion or redevelopment of such a 
facility may be complicated by real or perceived environmental 
contaminations. In 2002, Land-of-Sky Regional Council became one of the 
first organizations in a rural area to address brownfields on a 
regional basis.
    In less than 8 years, our organization, in partnership with the 
Environmental Protection Agency (EPA), has helped turn more than 20 
abandoned properties with real or perceived environmental impairment 
into vibrant, working and productive properties.
    Since 1992, EPA has invested more than $3.5 million in the 
Asheville region to help our rural communities address environmental 
challenges and support our region's economy. The Regional Brownfields 
Initiative helped transform a vacant mica plant in Asheville into 10 
affordable residential loft spaces.
    Earlier this year, our region was selected as one of 21 communities 
nationwide to receive an EPA Climate Showcase Communities grant. With 
this funding, the ``Reading, Riding, Retrofit'' program is improving 
energy efficiency in school buildings and identify alternative 
transportation choices, it will use ``Green Teams'' of students, 
teachers and parents to develop an educational program to promote 
sustainability as an ethic in our school children.
    EPA's support our region's growing green economy and is an 
excellent example of how the Livable Communities Act can further 
enhance our efforts to undertake school-based sustainability projects, 
promote transportation choices and energy efficiency retrofits.
    Fourth, Mr. Chairman, the Economic Development Administration's 
(EDA) support of our locally developed and regionally focused economic 
development planning process has helped connect our area's job creation 
strategies with fundamental principles for sustainable development.
    In 2007, with funding from EDA, our region's leadership developed a 
comprehensive economic development strategy. The strategy identified 
key challenges to our economy and set a course for our region's future 
development. Key areas identified in the strategy include:

  <bullet>  Quality, affordable workforce housing

  <bullet>  Transportation and air quality

  <bullet>  Reuse and redevelopment

  <bullet>  Regional growth management planning

  <bullet>  Clean energy planning

  <bullet>  Entrepreneurship

    In response to the Livable Communities Act, our region's leadership 
modified this guiding document to combine our six livability principles 
with our adopted economic development strategies. Our 19 local 
governments, led by the Land-of-Sky Regional Council and the City of 
Asheville, have joined forces with the region's chambers of commerce, 
private foundations and nonprofits to initiate the Western North 
Carolina Livable Communities Initiative.
    Further, in Asheville our local governmental and regional leaders 
are currently in the process of meeting with representatives from HUD, 
DOT, EPA and five other Federal Government agencies to begin working 
together to implement the sustainable goals that have been embraced by 
our region. Funding provided by the Livable Communities Act is 
essential to helping our region and other smaller metropolitan and 
rural communities across America provide a bright future for our 
residents and visitors.
    In closing, Mr. Chairman, I would offer that the principles of 
sustainability and livability can be defined in many ways. In Western 
North Carolina, we are the proud home of the Eastern Band of the 
Cherokee Indians. In their culture, the number seven is a sacred and 
honored number. The Cherokee Nation describes sustainability as 
planning and acting in a way to honor and respect the next seven 
generations. We believe that this legislation is critical in helping 
honor and respect future generations in Western North Carolina's rural 
communities.
    Thank you for the opportunity to testify in support of this 
important legislation. I welcome any questions or comments.
                                 ______
                                 
                   PREPARED STATEMENT OF LYLE D. WRAY
 Executive Director, Capital Region Council of Governments, Hartford, 
Connecticut, On Behalf of the National Association of Regional Councils
                              June 9, 2010

    Good morning and thank you, Chairman Dodd, Ranking Member Shelby 
and distinguished Members of the Committee. I am honored to be before 
you to testify on the vital role the Livable Communities Act would have 
within communities and regions of all sizes and make ups nationwide, 
focusing on my region, the Greater Hartford, Connecticut, region as one 
local perspective boasting great opportunity for implementation of the 
Livable Communities Act.
    My name is Lyle Wray and I serve as Executive Director of the 
Capitol Region Council of Governments (CRCOG) in Hartford, Connecticut, 
and also serve on the Executive Directors Council of the National 
Association of Regional Councils (NARC). Today, on behalf of NARC, I am 
here to demonstrate the need for and stress the importance of 
authorizing the Livable Communities Act to meet the growing demands of 
communities and regions nationwide.
    The National Association of Regional Councils is a nonprofit trade 
organization that serves as the national voice for regionalism, 
advocating for multijurisdictional cooperation as the most effective 
way to address community planning and development opportunities and 
challenges. NARC is governed by local elected officials and represents 
member regional planning organizations composed of multiple local 
governments that work together to improve America's communities--large 
and small, urban and rural. Through advocacy and assistance, NARC's 
mission is to increase funding and authority for all regional councils 
(RCs) and metropolitan planning organizations (MPOs), regardless of 
their size or location, and to strengthen American regions and 
communities in transportation, economic and community development, 
homeland security, and the environment--integrating fundamental 
planning and implementation functions within these core areas.
    Regional councils deliver an array of Federal, State, and local 
programs that provide planning support and technical assistance to 
local governments. The national network of regional councils includes 
organizations such as Metropolitan Planning Organizations (MPO), 
Councils of Government (COG), Rural Planning Organizations (RPO), 
Economic Development Districts (EDD) and Local Development Districts 
(LDD). Regional councils are either created by compact and/or enabling 
legislation or as voluntary consortia of local governments. Our mission 
is the delivery of services and programs for economic development, 
first responder and 911, health care, infrastructure development, aging 
services, air and water quality, land-use and long-range planning, 
economic and workforce development, data collection, transportation 
planning and the coordination of multiple plans into one coordinated, 
comprehensive plan at a regional level. As such, regional councils are 
responsible for much of the planning and programming of Federal, State, 
and local dollars.
    NARC's members, CRCOG included, support Chairman Dodd's efforts to 
promote ``livable communities'' by creating and maintaining robust 
Federal investment in locally driven, regionally focused comprehensive 
regional plans and the implementation of those plans that patch 
together transportation, the environment, housing and economic 
development opportunities within and among rural and urban, large and 
small communities. In pursuing livability from the Federal perspective, 
NARC supports the Act's voluntary, competitive and incentive-based 
approach to promoting comprehensive regional planning and 
implementation that allows each region to meet broad, federally 
established goals by setting regionally driven objectives based on 
consensus and a shared regional vision. These objectives, initiated by 
local government and strong public involvement, would be able to 
address new and existing challenges, advance regional collaboration, 
and leverage a region's assets to compete in a new global economy. 
Tailored to a region's needs and composition, livability initiatives 
generally should seek to highlight a region's core strengths while 
coordinating land use, transportation, the environment, energy, 
economy/economic development, social welfare, housing, and public 
safety issues--in order to properly balance growth, improve the overall 
quality of life and maintain vibrant local and regional economies. The 
Act recognizes and supports this bottom up approach that informs a 
Federal process and links the cross-purposes of various Federal 
agencies and programs.
    Regional planning organizations like CRCOG are today's ``boots on 
the ground'' planners and implementers of tomorrow's regional 
infrastructure, economies and opportunities. In order to continue our 
successful efforts, regional planning organizations need a robust 
Federal partner, decisive Federal leadership and increased flexibility, 
funding and resources within Federal programs like what is offered in 
the Livable Communities Act to help make long lasting community 
investments that promote holistic growth and an achievable, sustainable 
future.
    Mister Chairman, the convergence of a softening economy, declining 
Federal and State funds, rising unemployment, forecasted population 
growth, increased environmental concerns and the clear need for 
substantial investments in the country's infrastructure, communities 
require a realignment through comprehensive regional planning 
activities that spur livable, sustainable and vibrant communities. The 
question is--how can Congress best direct funding to provide family-
wage jobs, while stimulating innovation and entrepreneurship, and 
offering a wealth of cross-linked options within housing, 
transportation, environment and economic opportunity? One answer is 
through the authorization and funding of the Livable Communities Act. 
Let me offer some thoughts on the Act, and CRCOG region as a successful 
example comprehensive regional planning and implementation progress.
Capitol Region Council of Governments
    My organization--the Capitol Region Council of Governments 
(CRCOG)--is one of Connecticut's 15 regional planning organizations. We 
are established under the authority of the Connecticut General Statutes 
to serve as voluntary associations of local governments and regional 
planning agencies for our areas of operation. The Capitol Region serves 
the City of Hartford and the 28-surrounding suburban and rural 
communities, with a population of nearly 750,000 people. CRCOG is also 
the MPO for transportation planning purposes under the authority of 
Federal transportation legislation. The scope of our regional planning 
activities and programs include the following areas: transportation 
(including transit, bicycle and pedestrian initiatives, and 
environmental justice), housing, land use, environmental protection, 
open space and farmland preservation, municipal services, and public 
safety and homeland security (including predisaster natural hazard 
mitigation planning).
    A well-planned, coordinated and comprehensive regional plan 
supports a strategic vision for community and economic development and 
opportunities, and supports more efficient and effective distribution 
and use of public dollars. We are very excited about the Livable 
Communities Act, and its potential to forward integrated planning and 
investment decisions in support of sustainable community development. 
The benefits of such comprehensive and coordinated planning and 
investment are greater choice and convenience for our residents, and 
socially, economically and environmentally strong and vibrant 
communities.
    In the metropolitan Hartford region, we believe that this program 
will be particularly useful in helping us move forward with planning 
for transit oriented development associated with two major transit 
projects worth about 1.5 billion dollars about to implemented here: the 
New Britain to Hartford Busway, and the New Haven to Springfield 
Commuter Rail. It will also be useful in forwarding planning and 
redevelopment within other transit corridors in the region, as well as 
selected sites that have good access to on-street bus service.
    CRCOG and some of the communities along these transit corridors 
have already completed preliminary station area plans that focused on 
conceptual site design and assessing market opportunities in proposed 
station areas, and identifying possible strategies to encourage 
development. We have also worked with towns to develop and adopt 
transit oriented development principles that can be used to guide 
future planning and development. Through our U.S. Environmental 
Protection Agency (EPA) funded MetroHartford Brownfields Assessment 
Program, we have helped communities conduct environmental site 
assessments and remedial action plans for sites near proposed stations, 
which will be used to assist in municipal and/or private redevelopment 
efforts. We anticipate that Livable Communities Act planning and 
implementation funds can help us move these plans to reality by 
supporting the integration of planning and development within whole 
transit corridors, and the development of more detailed station area 
plans at specific sites.
    The Livable Communities Act acknowledges that coordinated regional 
and municipal planning is necessary to create strong, sustainable 
communities. It is the regional, corridor-level planning and 
coordination that will help us to implement consistent, transit 
supportive development principles, and consider how the individual 
municipal activities will be related. It will also help guide public 
investment decisions. But we also need to incorporate the regional 
planning and principles into the municipal level site planning, zoning 
and subdivision codes that will control how land is developed, and how 
private infrastructure investments are made. Our ultimate goal is to 
develop regional plans and local zoning codes for mixed use development 
that will link jobs, affordable and market-rate housing, and pedestrian 
and bicycle systems within a half-mile radius of proposed stations 
along the new bus rapid transit and commuter rail systems--for the 
economic and social benefit of the region as a whole. CRCOG is also 
studying other transportation corridors within the region, and this 
program will provide an opportunity to apply model codes that better 
connect a variety of land uses and transportation in other areas where 
on-street bus service, housing and economic development opportunities 
are closely linked.
    We are also very interested in integrating sustainable design and 
development practices into the development and redevelopment that will 
likely occur along the Hartford-New Britain Busway, the Springfield-New 
Haven Commuter and High-Speed Rail Line, and other areas of the region 
that are well-served by on-street bus service and water and sewer 
infrastructure.
    In 2008, we were fortunate to receive an award of Smart Growth 
Implementation Assistance from the U.S. EPA to explore how the 
principles of sustainable, mixed use development could be incorporated 
into the Incentive Housing Zones being developed in the region through 
the Home Connecticut Program, and other community planning efforts. The 
end product of our collaboration with EPA and four of our member 
communities was an interactive workshop and the development four 
separate reports that speak to how sustainable development guidelines 
can be applied to help towns and developers:

  <bullet>  Select prosperous smart growth locations for housing and 
        economic development;

  <bullet>  Implement neighborhood design and placemaking that creates 
        vibrant, walkable neighborhoods; and,

  <bullet>  Apply green infrastructure and energy efficient building 
        techniques to new and rehabilitated development, in order to 
        help reduce carbon emissions in the region.

    Attachment A \1\ is the introduction and overview of the November 
2009 report, ``Smart Growth Guidelines for Sustainable Design and 
Development'', presents guidelines for communities in Connecticut and 
around the country striving to get development and future growth that 
result in stronger neighborhoods, protected open space and watersheds, 
and healthier and more affordable homes. The executive summary for its 
companion report, Attachment B, ``Together We Can Grow Better: Smart 
Growth for a Sustainable Connecticut Capitol Region'' (December 2009), 
is a guide for small towns, urban centers and metropolitan regions 
looking for ways to grow and develop that respond to changing 
demographics, market forces and environmental challenges. Both reports 
can be fully accessed on CRCOG's Web site.
---------------------------------------------------------------------------
     \1\ Due to the size of Attachments A through F, they are being 
held in the Committee's files. To reference them please contact the 
Committee office.
---------------------------------------------------------------------------
    During the same time period, we collaborated with the Regional Plan 
Association on another project that looked at what impact changing 
development patterns within transit corridors can have on reducing 
carbon emissions. The final report of that effort, ``Growing Economy, 
Shrinking Emissions'' (2009) (executive summary is Attachment C; full 
report available on CRCOG's Web site), reinforced the point that by 
developing in a more compact manner within transit corridors, we, as a 
region, can achieve real, positive impacts on reducing greenhouse gas 
emissions in the 5 percent to 20 percent reduction range.
    We believe that the Livable Communities Act can help us develop 
models that will help towns apply the CRCOG/EPA sustainable development 
guidelines to projects throughout the region--so that we may begin to 
address our long-term climate change goals.
    A fourth report (Attachment D), also available on CRCOG's Web site, 
``From Grey to Green: Sustainable Practices for Redeveloping a Vacant 
Shopping Center'', provides smart growth and green infrastructure best 
practices for communities considering greyfield redevelopment using 
green practices for stormwater management.
Sustainable Capitol Region
    CRCOG recently created a new Sustainable Capitol Region (Attachment 
E) initiative whose mission is to ``develop and support integrated 
regional approaches to planning, projects and investments that will 
promote vibrant, healthy communities, protected natural resources and 
open spaces, equitable access to opportunities and an economically 
competitive Capitol Region to serve all our citizens today, and in the 
future.'' This initiative ties together the good work already being 
done by CRCOG and others in the areas of community development, 
transportation, economic development, environmental protection, public 
safety, homeland security, cooperative purchasing and municipal service 
sharing. Sustainable Capitol Region will provide the umbrella which 
CRCOG and a diverse range of community partners can work together to 
ensure that our collective planning for and investments in the greater 
Hartford area can be harnessed to create strong, sustainable and 
livable communities. The Livable Communities Act holds great promise 
for our region, through providing much-needed grants to help us better 
coordinate the planning currently underway, as well as funding to 
implement strategic projects that will ultimately build a more 
sustainable Capitol Region.
Authorizing the Livable Communities Act (LCA)
    The authorization of the Livable Communities Act (LCA) is 
essential, particularly in these difficult economic times, for linking 
proven, cost-effective programs, and reinforcing the efficient 
investment of Federal resources through comprehensive regional planning 
and implementation initiatives. These efforts ensure appropriate 
community involvement to coordinate long term planning, and improve 
organizational effectiveness, stronger environmental management, 
reduced costs and time to complete regional projects, as well as a 
multitude of other benefits that can drive regional economic growth and 
opportunity.
    Regions are incubators of economic development by drawing on the 
collective strength of cities, counties and towns across a geographic 
region. CRCOG and its fellow regional planning organizations are 
recognized as experienced partners, consensus builders, community 
leaders and program managers. We convene local and multijurisdictional 
government leaders with businesses to support rural, suburban and urban 
workforce development activities. We have a proven record for 
administering local, State, and Federal funds and programs that bolster 
economic vitality. Our organizations develop innovative approaches and 
replicable practices that support strategic investments for 
sustainability and growth agendas in the Nation's communities. The LCA 
would provide the groundwork and Federal commitment to further regional 
and local activities by placing national emphasis on the integration of 
strategic regional transportation, economic, environmental, land use 
and housing planning objectives, breaking down silos, and streamlining 
processes to encourage cross-cutting, regional efforts.
    From our experience, we believe the local government supported 
network of regional councils like CRCOG, with our broad spectrum of 
issues and expertise in programming Federal, State, and local funds and 
services, are a natural vehicle through which the Federal Government 
can realize efficiencies in delivering Federal programs. We believe 
such economies of scale, market penetration and peer-to-peer learning 
that can be achieved on a regional level will strengthen communities 
and help galvanize sustainable community or livability initiatives 
throughout the country. NARC sees the LCA as helping to advance this, 
and providing a multitude of benefits for citizens, businesses, 
community stakeholders, local, and State governments, and the Federal 
Government. Most simply stated, the LCA:

  <bullet>  Reaffirms the Federal role in regionalism;

  <bullet>  Helps coordinate regional assistance programs;

  <bullet>  Provides for Federal interagency coordination and meetings;

  <bullet>  Assists in determining a Federal livability framework;

  <bullet>  Is inclusive of regions and local governments of all sizes 
        and make ups;

  <bullet>  Is voluntary and provides incentives for locally determined 
        sustainable growth strategies and activities;

  <bullet>  Establishes competitive comprehensive regional planning and 
        implementation grants;

  <bullet>  Promotes regional and local cooperation and service 
        sharing;

  <bullet>  Ensures land-use/zoning requirements do not impede upon 
        local decision-making; and,

  <bullet>  Provides for transparency, accountability and 
        replicability.

    Under the LCA, a livable community is defined as one that provides 
safe and reliable transportation choices, and affordable, energy 
efficient housing; supports public health and economic development; 
and, preserves natural, agricultural, and environmental resources. This 
broad, malleable definition allows for the Act to fund goals, 
strategies and outcomes that are flexible and locally derived through 
community stakeholder and citizen input. The LCA recognizes that 
communities of all sizes, make ups and capabilities are an important 
part of the national landscape, economy and future. Opportunities 
offered in the LCA will provide regional planning organizations, local 
governments, businesses, community groups and citizens alike the 
resources and collective capabilities to exercise choice in the ways we 
nurture, enhance and protect our large metropolitan areas, as well as 
our rural and small communities to ensure the unique characteristics, 
histories, offerings, and needs and wants are preserved for generations 
to come.
    The LCA could provide critical assistance to communities in areas 
such as:

  <bullet>  Economic Development: The LCA provides flexible grant 
        opportunities to stimulate local economic growth. Communities 
        are encouraged to seek out collaborative partnerships across 
        regions, cities, and towns to engage regional economic 
        development strategies that can help direct resources and 
        funding more efficiently and effectively throughout a region. 
        The LCA would also support regional economic development 
        initiatives through workforce training and increasing the 
        technology infrastructure of a region (i.e., increased 
        broadband access), as rural regions require increased access to 
        jobs, education and training, as well as up-to-date 
        technological resources for retaining a strong workforce.

  <bullet>  Job Creation: The LCA would provide new resources to 
        communities to spur economic development, stimulate commercial 
        and industrial growth, attract new businesses and jobs, and 
        incentivize innovation. The Act would encourage local 
        governments and regions to develop local business and 
        innovation clusters that provide industry incentives for 
        entrepreneurship, apprentice and job training programs, and job 
        creation; revitalize downtown and historic neighborhoods that 
        preserve a community's identity and historical character, while 
        generating new jobs, supporting independent businesses, and 
        creating new economic opportunity; increase access to cultural 
        and entertainment attractions that foster community investment 
        and expand tax and investment revenue; and, improve 
        transportation options, access and choice that incentivize new 
        business and residential development, and contribute to the 
        overall economic growth of the region. Access to transportation 
        options connects residents to jobs and investment to economic 
        opportunity for regional and local businesses.

  <bullet>  Transportation: The Act would provide competitive granting 
        opportunities that support sustainable transit-oriented 
        investment. Transit options are important for regions of all 
        sizes, providing residents transportation alternatives. By 
        increasing sustainable multimodal transportation choices, 
        communities can incentivize new business and residential 
        development; provide residents greater access to jobs, 
        education, and necessary resources; and, contribute to the 
        overall economic growth of the region. The flexibility of the 
        LCA allows regions to adapt to local transportation needs and 
        plan around a variety of transportation options.

  <bullet>  Environment/Agriculture: The LCA would support projects 
        that clean-up and redevelop brownfields, reinforce sustainable 
        agricultural practices, preserve open space, rural areas and 
        natural resources, and improve environmental quality and public 
        health. The LCA would encourage local governments and regions 
        to create regional food systems that offer new opportunities 
        for commerce and growth for local and regional food producers, 
        businesses and related industries, while supporting local jobs 
        and food needs that connect urban, suburban and rural 
        communities; improve environmental health and management by 
        promoting sustainable practices that are guided by local 
        government-approved, citizen-influenced comprehensive regional 
        planning and implementation; and preserve agricultural land, 
        natural resources, and open space as vital parts of rural areas 
        and small towns for economic growth industries such as farming 
        and tourism.

    The LCA is also important from Federal policy and programmatic 
perspectives in that it would:

  <bullet>  Not place mandates on local governments or regions, but 
        would provide a competitive opportunity to engage in Federal 
        funding for comprehensive regional planning and implementation;

  <bullet>  Not have stringent requirements on local governments and 
        regions, but would be inclusive and flexible; not be 
        antigrowth, but would support prosperous, healthy communities 
        that utilize sustainable land-use strategies through 
        comprehensive regional planning and implementation for future 
        transportation, housing, environmental, and economic 
        development that looks at communities in a holistic fashion. 
        The LCA encourages programs that make use of existing 
        infrastructure and resources, as well as plan for future 
        regional growth, changing demographics and needs; and,

  <bullet>  Not make exclusions, but would promote comprehensive, 
        inclusive planning that is adaptable to local community needs.

    The flexible, inclusive nature of the LCA is key to defining and 
seeing progress due to the fact that local governments and regions 
around the country are at varying stages of creating livable 
communities. By respect differing capabilities, geographies, 
demographics and cultures, the LCA is structured to allow for visionary 
plans and projects that will address local needs and desires. The 
mutually agreed upon decisions of the local governments and community 
stakeholders developed through the regional planning process, and 
provide choice in achieving common goals, while encouraging and 
incentivizing local planning, procurement and projects consistent with 
approved comprehensive regional plans. NARC views the LCA as a first 
step in patching together multiple Federal, State, local and regional 
planning requirements and investment through incentives that promote 
holistic approaches to establishing livable communities (See, NARC 
Livability Framework, Attachment F). This includes the alignment of 
timetables, schedules, data and research, plan assumptions and 
forecasts, interagency consultation and outreach requirements, helping 
facilitate on-the-ground program linkages that exercise regional 
approaches to development.
Conclusion
    More than ever, regional planning organizations--urban and rural 
alike--are the conduit by which local governments can save money and 
time, while achieving concrete and visionary results through the 
pooling resources and development of integrated solutions to some of 
our biggest challenges. Now is the time for the Federal Government 
bolster its commitment and assistance to regional efforts by 
encouraging multijurisdictional work through incentives, flexibility, 
streamlining and direct funding to our local governments and their 
regional planning organizations. The Livable Communities Act is vitally 
needed in communities and regions nationwide to help restore economic 
prosperity and foster partnerships and innovative practices that make 
all of our counties, cities, towns, townships, villages and boroughs 
great places to live, play, work, and invest.
    Thank you for allowing me to testify on behalf of NARC and giving 
me the opportunity to highlight some of the accomplishments and 
exemplary work of my region. NARC offers its support and assistance to 
ensure the Livable Communities Act is firmly incorporated into future 
Congressional work. We look forward to working with Chairman Dodd and 
the Members of this Committee to progress Federal enactment of 
policies, programs and funding that assist communities and regions in 
achieving their unique visions of livable communities through the 
cross-pollination of planning, program areas and services, linking 
community needs to smart, sustainable growth.
                                 ______
                                 
                  PREPARED STATEMENT OF JULIA W. GOUGE
President, Board of County Commissioners, Carroll County, Maryland, On 
             Behalf of the National Association of Counties
                              June 9, 2010

    Chairman Dodd, Ranking Member Shelby, and Members of the Banking, 
Housing, and Urban Affairs Committee. My name is Julia Gouge, and I am 
President of the Carroll County Board of Commissioners, Member of the 
National Association of Counties' (NACo) Board of Directors; 
Environment, Energy and Land Use Steering Committee; and Rural Action 
Caucus. I thank you for the opportunity to testify at this important 
hearing on the Livable Communities Act, S. 1619. It is my privilege to 
represent NACo and our President, Sonoma County, CA, Supervisor Valerie 
Brown here today. We appreciate Chairman Dodd's commitment to ensuring 
rural, midsize and urban communities can benefit from The Livable 
Communities Act.
    NACo, the only national organization representing America's 3,068 
counties, supports the Livable Communities Act, which provides 
incentive grants to local areas for regional planning around housing, 
transportation, environmental, energy, land use and health initiatives. 
NACo has long advocated for flexibility, regionalism, and direct 
funding to local governments and regions as proven methods for 
enhancing communities. NACo believes that sustainability initiatives 
are most effective when they are multijurisdictional and involve 
multidimensional collaborations across communities of all sizes. Last 
year, NACo passed a resolution supporting Senator Dodd's legislation 
and we appreciate his and the Committee's leadership on sustainable 
issues.
    Rural, suburban and urban counties have been pursuing local 
strategies to create livable communities and implement sustainable 
development for decades. NACo has worked to support our members in 
achieving sustainable development for more than 15 years through 
assistance on issues including smart growth and planning; sustainable 
economic development and business retention; improving citizen health 
through obesity prevention initiatives and promoting active living; as 
well as increasing efficiency and transparency in development; and in 
housing and home-ownership opportunities. NACo's initial efforts in the 
mid 1990s focused on city--county collaborations and priorities now 
include clean energy development and disaster resiliency.
    In July 2010, at NACo's Annual Conference, the first draft of a 
member survey on County Sustainability Efforts will be released and the 
final publication will be unveiled in the Fall of 2010. Considering the 
diverse set of sustainability strategies now available to America's 
counties, NACo is undertaking this effort to better define, prioritize, 
and more fully assess the landscape of county sustainability 
strategies.
    More specifically, the survey will capture counties' differing 
levels of sustainability knowledge, interest, commitment, and barriers 
to the development of specific sustainability goals--including energy 
efficiency, renewable energy generation, water conservation, green job 
creation, and integrated waste management.
    NACo also began the Green Government Initiative in 2007 to provide 
comprehensive resources for local governments on all things green. The 
NACo Green Government Initiative is a:

  <bullet>  hub for county leadership on all things green,

  <bullet>  public/private partnership to provide information, training 
        and assistance to counties, and

  <bullet>  catalyst to facilitate county green policies, practices, 
        and products that result in financial and environmental 
        savings.

We have focused on a variety of topics including:

  <bullet>  Energy efficient buildings

  <bullet>  High mileage and alternatively fueled fleets

  <bullet>  Environmentally preferable purchasing

  <bullet>  Waste management and recycling

  <bullet>  Water quality and conservation

  <bullet>  Land use and conservation

  <bullet>  Climate protection and adaptation and

  <bullet>  Community sustainability

The priorities for 2010 are:

  <bullet>  Cost-Saving Strategies through ``going green''

  <bullet>  Energy Efficiency and Clean Energy, especially 
        implementation of the Energy Efficiency and Conservation Block 
        Grant

  <bullet>  Green Jobs and the Local Economy and

  <bullet>  Local food supply and community gardening

    In May 2010, NACo's Green Government Initiative completed a new 
guidebook on the role counties can play in growing their local green 
economies. ``Growing a Green Local Economy: County Strategies for 
Economic, Workforce and Environmental Innovation'' serves as a resource 
for counties interested in assessing the unique attributes of their 
local green economy and tapping into its tremendous potential.
    Planning for sustainable communities is by its nature a regional 
effort. Counties are unique in that they are at their core a regional 
form of government, especially in rural America. Whether acting 
individually, with neighboring jurisdictions, or through regional 
councils, counties have the primary role in land-use planning and 
economic development decisions that impact and determine the growth, 
development and livability of communities.
    However, many counties, especially rural and midsize counties would 
like to begin sustainable planning and development but lack the 
resources to do so. Many other counties have developed strong 
sustainability plans, but need extra funding to implement. Chairman 
Dodd's legislation will be effective because it meets communities where 
they are--at the planning or implementation stage. Also, the grants are 
available to meet the needs of counties of all sizes, including rural 
ones.
    In my county of Carroll County, MD, population of 175,000 through 
regional planning and innovative partnerships we have created three 
LEED (Leadership in Energy and Environmental Design) Certified Green 
Buildings. These buildings are oriented for site optimum natural day 
lighting and solar control; solar heating for domestic water; occupancy 
sensors for lighting; extensive storm water management structures; 
geothermal mechanical systems; and the use of high-recycled content 
materials such as steel, carpet, acoustical ceiling panels, drywall and 
concrete. To help reduce our carbon footprint, we have also invested in 
the purchase of hybrid cars for our fleet, as well as hybrid vans for 
our local transportation system.
    Carroll County is one of the 21 governmental entities participating 
in the ``Energy Management Initiative,'' provided through partnership 
with the Baltimore Metropolitan Council (BMC). In Fiscal Year 2009, 
Carroll County estimated an electricity savings from BGE of $900,000. 
Carroll is an active participant on the regional Sustainability Council 
of the BMC, which promotes coordinated policies amongst the regional 
jurisdictions to: realize smarter, more efficient energy purchases and 
utilization; share best practices relating to sustainable growth and 
development; and, adopt model alternative energy and sustainability 
plans from successful examples gained from other metro areas. We are 
also actively participating in the regional ``Vision 2060'' effort 
which is a long-term visioning exercise being conducted by the BMC. The 
effort is designed to develop long term plans for transportation 
alternatives in the Baltimore metro area--fifty years in the future. 
The BMC member jurisdictions hope to create a plan that will place 
sustainability and livability at the top of the future priorities list 
(i.e., expanded transit system, reduction of single occupant vehicles 
on crowded roadways, and reduction in vehicle miles travelled, by 
promoting efficient land use and development).
    In an effort to preserve our rural history, Carroll County has 
implemented an Installment Purchase Agreement (IPA) for farm 
preservation. This program allows us to purchase development rights, by 
leveraging our money, so that we can buy more land at today's prices. 
To date, we have placed over 60,000 acres into permanent agricultural 
preservation.
    NACo continues to believe that sustainability should be voluntary 
and encouraged through a Federal grant program that rewards regions and 
communities that undertake sustainable programs, like what is proposed 
in the Livable Communities Act. We do not believe that sustainability 
should be a condition for receiving housing, transportation and other 
traditional sources of Federal funding.
    We believe that all communities should be eligible for the program. 
Under the initial proposed legislation, some rural and remote 
communities would not have been eligible. We support a fix that would 
set aside funds for a subcategory of rural areas that are not part of 
an otherwise eligible micropolitan area.
    These rural communities have undertaken sustainable development 
projects at a scale that is realistic based on resource and geography 
constraints. These communities represent the majority of the Nation's 
land mass and should play a critical role in Federal efforts to 
encourage sustainable development. For example, only 122 counties have 
populations over 500,000. About 180 counties fall in the 200,000 to 
500,000 population range and 2,835 counties (over 90 percent) have 
populations below 200,000.
    NACo's Rural Action Caucus (RAC) advocated for passage of the 
Livable Communities Act during their recent legislative fly-in on April 
28, 2010. Also, Brookings County, SD, Commissioner Don Larson, Chair of 
the Agriculture and Rural Affairs Committee and member of RAC spoke at 
the Senate briefing on The Livable Communities Act Rural Benefits on 
April 30, 2010. RAC is the voice for America's rural counties in 
Washington. It is a bipartisan coalition of rural elected officials, 
who strive to enhance the quality of life in rural counties through 
effective Federal legislation. The caucus is not only the advocacy arm 
of the organization, but also serves as the conduit for technical and 
programmatic assistance through the NACo County Services Department.
    The legislation also creates the Office of Sustainable Housing and 
Communities to coordinate Federal policies and initiatives on livable 
communities which will provide information on best practices and 
technical assistance. The U.S. Department of Urban Development has 
already started such an office and has grant money available for Fiscal 
Year 2010 on sustainable planning. The bill would also formally 
establish the Interagency Council on Sustainable Communities, a 
partnership between U.S. Environmental Protection Agency, Department of 
Transportation and Department of Housing and Urban Development (HUD). 
NACo supports HUD taking the lead on breaking down silos within the 
Federal Government and Senator Dodd's legislation supporting these 
efforts.
    NACo believes it is the right time for passage of the Livable 
Communities Act because of the difficult economic and fiscal 
environment in our counties, and the pressure of new social, economic 
and environmental imperatives. The goal of sustainability compels all 
levels of government to regroup, and to demand innovative 
multijurisdictional, multidimensional and fiscally sound approaches 
that will lead to better transportation choices, equitable and 
affordable housing, social equity and enhanced opportunities for our 
communities.
    When Federal funding is involved, efforts at integrated local and 
regional planning are often hindered by the States when funds are not 
granted directly to local governments. Therefore, NACo appreciates that 
the bill allows local entities to receive funding directly.
    Thank you for the opportunity to testify. We look forward to 
working with Chairman Dodd and other Members as this legislation moves 
forward to ensure that small metro and rural communities are active 
participants along with urban ones. I would be happy to answer any 
questions you may have.

Attachment

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        RESPONSES TO WRITTEN QUESTIONS OF SENATOR VITTER
                      FROM JULIA W. GOUGE

Q.1. Within HUD, there already exists the Office of Community 
Planning and Development, the Office of Fair Housing and Equal 
Opportunity, as well as the Office of Housing. Also, there are 
several other governmental programs such as Community 
Development Block Grant Programs, Rural Housing and Economic 
Development Programs, and Brownfields Economic Development 
Initiative. How do you feel the Livable Communities Act differs 
from the goals of these programs that already exist?

A.1. Goals of the Livable Communities Act differ from goals of 
the above agencies, in that the Livable Communities Act is not 
limited to population or income levels. The Livable Communities 
Act would address potential environmental contamination, and 
would improve fair housing opportunities.
    I have asked our grants office to create a chart showing 
the comparison between the Livable Communities Act and programs 
that our county is currently using. I would be happy to share 
that information, if you so wish.

Q.2. This legislation will cost the taxpayer $4 billion over 
the next 3 years in grant allocations alone, let alone the cost 
it takes to establish two new bureaucracies within the 
Department of Housing and Urban Development. How would you 
suggest the Congress, as good stewards of taxpayer money, plan 
on funding the new Government programs formed by this 
legislation?
    Will two new bureaucracies mean that those agencies would 
coordinate all other agencies listed above, so that people 
would only have two agencies to converse with or not?

A.2. Counties with populations under 50,000 are hindered due to 
the amount of staff time and development cost required to 
research, conduct studies and perform engineering and design 
required to develop grant applications. Smaller counties would 
have a better opportunity to apply for competitive grants, with 
a simplified grant application to one agency, rather than four 
to six different agencies. A direct reporting system from 
county level to Federal level and back again, would simplify 
things and cut out the middle man.
    If the Federal Government would like to see sustainable 
communities thriving with innovative energy projects, and 
livable communities that will help the environment, and the 
people living within them, it will need to step in and make it 
happen. The bottom line is, local governments do not have the 
finances or staff time required to apply for grants. If the 
process is complicated, if it deals with a number of agencies, 
and if duplicate reporting systems are required, those counties 
do not have the time to make it happen.
    Small counties need to stay focused on the immediate needs 
of their community. The Federal Government can help communities 
make real improvements to quality of life if they offer funding 
and technical assistance during the application and 
implementation phase of the process.
    Thank you for your time and consideration. I thank you once 
again for allowing us to testify on the Livable Communities 
Act. We look forward to working with you in the future.

              Additional Material Supplied for the Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
